<html>
<title> - NO CHILD LEFT BEHIND: SUPPLEMENTAL TUTORING FOR CHILDREN IN UNDERACHIEVING SCHOOLS</title>
<body><pre>[House Hearing, 109 Congress]
[From the U.S. Government Printing Office]




 
     NO CHILD LEFT BEHIND: SUPPLEMENTAL TUTORING FOR CHILDREN IN 
                        UNDERACHIEVING SCHOOLS

=======================================================================

                                HEARING

                               before the

                         COMMITTEE ON EDUCATION
                           AND THE WORKFORCE
                     U.S. HOUSE OF REPRESENTATIVES

                       ONE HUNDRED NINTH CONGRESS

                             FIRST SESSION

                               __________

                             April 26, 2005

                               __________

                           Serial No. 109-11

                               __________

  Printed for the use of the Committee on Education and the Workforce



 Available via the World Wide Web: http://www.access.gpo.gov/congress/
                                 house
                                   or
            Committee address: http://edworkforce.house.gov


                                 ______

                    U.S. GOVERNMENT PRINTING OFFICE
20-815                      WASHINGTON : 2005
_____________________________________________________________________________
For Sale by the Superintendent of Documents, U.S. Government Printing Office
Internet: bookstore.gpo.gov  Phone: toll free (866) 512-1800; (202) 512�091800  
Fax: (202) 512�092250 Mail: Stop SSOP, Washington, DC 20402�090001

                COMMITTEE ON EDUCATION AND THE WORKFORCE

                    JOHN A. BOEHNER, Ohio, Chairman

Thomas E. Petri, Wisconsin, Vice     George Miller, California
    Chairman                         Dale E. Kildee, Michigan
Howard P. ``Buck'' McKeon,           Major R. Owens, New York
    California                       Donald M. Payne, New Jersey
Michael N. Castle, Delaware          Robert E. Andrews, New Jersey
Sam Johnson, Texas                   Robert C. Scott, Virginia
Mark E. Souder, Indiana              Lynn C. Woolsey, California
Charlie Norwood, Georgia             Ruben Hinojosa, Texas
Vernon J. Ehlers, Michigan           Carolyn McCarthy, New York
Judy Biggert, Illinois               John F. Tierney, Massachusetts
Todd Russell Platts, Pennsylvania    Ron Kind, Wisconsin
Patrick J. Tiberi, Ohio              Dennis J. Kucinich, Ohio
Ric Keller, Florida                  David Wu, Oregon
Tom Osborne, Nebraska                Rush D. Holt, New Jersey
Joe Wilson, South Carolina           Susan A. Davis, California
Jon C. Porter, Nevada                Betty McCollum, Minnesota
John Kline, Minnesota                Danny K. Davis, Illinois
Marilyn N. Musgrave, Colorado        Raul M. Grijalva, Arizona
Bob Inglis, South Carolina           Chris Van Hollen, Maryland
Cathy McMorris, Washington           Tim Ryan, Ohio
Kenny Marchant, Texas                Timothy H. Bishop, New York
Tom Price, Georgia                   John Barrow, Georgia
Luis G. Fortuno, Puerto Rico
Bobby Jindal, Louisiana
Charles W. Boustany, Jr., Louisiana
Virginia Foxx, North Carolina
Thelma D. Drake, Virginia
John R. ``Randy'' Kuhl, Jr., New 
    York

                    Paula Nowakowski, Staff Director
                 John Lawrence, Minority Staff Director


                                 ------                                

                            C O N T E N T S

                              ----------                              
                                                                   Page

Hearing held on April 26, 2005...................................     1

Statement of Members:
    Boehner, Hon. John A., Chairman, Committee on Education and 
      the Workforce..............................................     1
        Prepared statement of....................................     3
    Miller, Hon. George, Ranking Member, Committee on Education 
      and the Workforce..........................................     4
        Prepared statement of....................................     6
    Woolsey, Hon. Lynn C., a Representative in Congress from the 
      State of California, prepared statement of.................    44

Statement of Witnesses:
    Cohen, Jeffrey, President, Catapult Learning, Inc., 
      Baltimore, MD..............................................    17
        Prepared statement of....................................    20
    Nola-Ganey, Donna, Assistant Superintendent, Office of School 
      and Community Improvement, Louisiana Department of 
      Education, Baton Rouge, LA.................................     8
        Prepared statement of....................................    10
    Swanson, Elizabeth, Director, Office of After School and 
      Community Programs, Chicago, IL............................    22
        Prepared statement of....................................    24
    Teasley, Kevin, Founder and President, GEO Foundation, 
      Indianapolis, IN...........................................    12
        Prepared statement of....................................    15


      NO CHILD LEFT BEHIND: SUPPLEMENTAL TUTORING FOR CHILDREN IN 
                         UNDERACHIEVING SCHOOLS

                              ----------                              


                        Tuesday, April 26, 2005

                     U.S. House of Representatives

                Committee on Education and the Workforce

                             Washington, DC

                              ----------                              

    The committee met, pursuant to call, at 1:30 p.m., in room 
2175, Rayburn House Office Building, Hon. John A. Boehner 
(chairman of the committee) presiding.
    Present: Representatives Boehner, Castle, Biggert, Osborne, 
Kline, McMorris, Price, Boustany, Miller, Kildee, Woolsey, 
Tierney, Davis of California, McCollum, Davis of Illinois and 
Van Hollen.
    Staff Present: Kevin Frank, Professional Staff Member; Lucy 
House, Legislative Assistant; Melanie Looney, Professional 
Staff Member; Sally Lovejoy, Director of Education and Human 
Resources Policy; Alexa Marrero, Press Secretary; Krisann 
Pearce, Deputy Director of Education and Human Resources 
Policy; Deborah L. Samantar, Committee Clerk/Intern 
Coordinator; Alice Cain, Minority Legislative Associate/
Education; Lloyd Horwich, Minority Legislative Associate/
Education; Ricardo Martinez, Minority Legislative Associate/
Education; Alex Nock, Legislative Associate/Education; and Joe 
Novotny, Legislative Associate/Education.
    Chairman Boehner. The Committee on Education and the 
Workforce will come to order. We are holding this hearing today 
to hear testimony on No Child Left Behind: Supplemental 
Tutoring for Children in Underachieving Schools. Under the 
committee rules, opening statements are limited to the chairman 
and Ranking Member. So if there are other Members who have 
statements, they will be included in the hearing record. And 
with that, I ask unanimous consent that the hearing record 
remain open for 14 days to allow Member statements and other 
material referenced during the hearing to be submitted for the 
official hearing record. Without objection, so ordered.

   STATEMENT OF HON. JOHN A. BOEHNER, CHAIRMAN COMMITTEE ON 
                  EDUCATION AND THE WORKFORCE

    Chairman Boehner. Parental choice in education is one of 
the pillars of the No Child Left Behind Act. And I believe all 
parents, regardless of race, income or status, should have the 
right to choose where they believe are the best possible 
schools for their children. I believe it is particularly 
essential that we give this right to parents of children who 
would otherwise be trapped in chronically underachieving 
schools.
    Congress has taken two important steps toward this goal 
under President Bush. Last year we created the bipartisan D.C. 
School choice program, creating the first federally funded 
school choice program in the country. And in April 2002, No 
Child Left Behind was signed into law.
    No Child Left Behind not only provides parents with access 
to information, but also guarantees parents the right to do 
something with that information when it is clear that the 
schools their children are attending are not getting the job 
done. Low-income parents with children in public schools 
identified as in need of improvement for 2 or more consecutive 
years must be provided the opportunity to obtain supplemental 
education services such as private tutoring paid for with their 
children's share of Federal Title I funds. Parents with 
children in schools identified as in need of improvement for 1 
year or more are given the right to transfer their children to 
better-performing public or charter schools provided one is 
available.
    Private tutoring has proved to be the far more popular of 
the two options amongst parents. This is not a surprise because 
the public school provision--school choice provisions in No 
Child Left Behind are compromised. And when you offer parents a 
limited choice, you are going to get a mixed response. When you 
offer parents the full range of options, I think you are going 
to get a better response. We are seeing that right now in the 
District of Columbia where the Washington Post recently 
reported that parental demand for the new D.C. School choice 
scholarships has outnumbered the supply by two to one.
    Similarly, No Child Left Behind's tutoring provisions 
present parents with a full range of options when it comes to 
obtaining supplemental educational services from quality 
providers. Private providers, including faith-based providers, 
are eligible to provide tutoring services, and the response 
from parents has been considerable, even despite evidence some 
districts are wrongly limiting the range of options available 
to parents or failing to provide parents with adequate notice 
about their rights.
    During the No Child Left Behind legislative process, some 
legislators, including this one, wanted the supplemental 
services option to kick in immediately for parents as soon as 
the school was identified by its State as in need of 
improvement. Some of us also believed that the law should 
specify that school districts identified under No Child Left 
Behind as underachieving or needing improvement should not be 
permitted to serve as tutoring providers. Supplemental 
educational services are meant to provide a supplement for the 
education of children and not--and for those not receiving it 
from underachieving school districts as those districts work to 
improve.
    We ended up with something that was a vast improvement over 
previous law, but didn't go quite as far as we would have 
liked, at least not as far as I would have like. We passed a 
law that required tutoring options only for disadvantaged 
children in schools designated by their States as in need of 
improvement for 2 or more consecutive years. The law also 
effectively left it to the U.S. Secretary of Education to 
determine whether an underachieving school district could 
provide supplemental services to its students. While the 
Secretary has implemented regulations that prohibit a district 
identified as in need of improvement from serving as a tutoring 
provider, some districts have challenged that regulation.
    When Congress revisits No Child Left Behind at some point 
in the future, we will--we won't set in stone when--there will 
be heavy pressure from interest groups that want changes that 
would weaken the accountability system at the heart of this 
bipartisan education reform law, and my hope is that Congress 
will continue to resist the temptation to make such 
shortsighted changes and will improve on the law by addressing 
both of these issues as part of any reauthorization process.
    Last, while public schools have a responsibility to 
children, parents and taxpayers, private tutoring providers do, 
too. Many in the tutoring industry have voluntarily adopted 
quality standards to ensure that the principles of No Child 
Left Behind are honored, and I applaud the industry for taking 
these steps. I also expect Secretary Spellings at the 
Department of Education will soon be providing further guidance 
on this topic.
    My hope is that the Department's forthcoming guidance will 
provide appropriate safeguards for children and taxpayers 
without stepping on States rights or discouraging quality 
providers from offering their services to disadvantaged 
children.
    With that, I would like to say thanks to the witnesses for 
being here today and would yield to my friend and colleague 
from California Mr. Miller.
    [The prepared statement of Chairman Boehner follows:]

Statement of Hon. John A. Boehner, Chairman, Committee on Education and 
                             the Workforce

    Parental choice in education is one of the pillars of the No Child 
Left Behind Act.
    I believe all parents, regardless of race, income, or status, 
should have the right to choose what they believe are the best possible 
schools for their children. I believe it's particularly essential that 
we give this right to the parents of children who would otherwise be 
trapped in chronically underachieving public schools.
    Congress has taken two important steps toward this goal under 
President Bush. Last year, we created the bipartisan D.C. school choice 
program, creating the first federally-funded school choice program in 
the country. And in 2002, the No Child Left Behind Act was signed into 
law.
    No Child Left Behind not only provides parents with access to 
information, but also guarantees parents the right to do something with 
that information when it is clear the schools their children attend are 
not getting the job done. Low-income parents with children in public 
schools identified as needing improvement for two or more consecutive 
years must be provided the opportunity to obtain supplemental 
educational services such as private tutoring, paid for with their 
children's share of federal Title I funds. Parents with children in 
schools identified as needing improvement for one year or more are 
given the right to transfer their children to better-performing public 
or charter schools, provided one is available.
    Private tutoring has proved to be the far more popular of the two 
options among parents. This is not a surprise, because the public 
school choice provisions in No Child Left Behind are a compromise. When 
you offer parents a limited choice, you're going to get a mixed 
response. When you offer parents the full range of options, you're 
going to get a better response. We're seeing that right now in the 
District of Columbia, where the Washington Post recently reported that 
parental demand for the new D.C. choice scholarships is outnumbering 
the supply by 2 to 1.
    Similarly, No Child Left Behind's tutoring provisions present 
parents with the full range of options when it comes to obtaining 
supplemental educational services from quality providers. Private 
providers, including faith-based providers, are eligible to provide 
tutoring services--and the response from parents has been considerable, 
even despite evidence some districts are wrongly limiting the range of 
options available to parents, or failing to provide parents with 
adequate notice about their rights.
    During the No Child Left Behind legislative process, some 
legislators, including this one, wanted the supplemental services 
options to kick in immediately for parents, as soon as a school was 
identified by its state as needing improvement. Some of us also 
believed the law should specify that school districts identified under 
No Child Left Behind as underachieving or needing improvement should 
not be permitted to serve as tutoring providers. Supplemental 
educational services are meant to provide a supplement for the 
education children are not receiving from underachieving school 
districts, as those districts work to improve.
    We ended up with something that was a vast improvement over 
previous law, but didn't go quite as far as we would have liked. We 
passed a law that required tutoring options only for disadvantaged 
children in schools designated by their states as needing improvement 
for two or more consecutive years. The law also effectively left it to 
the U.S. Secretary of Education to determine whether an underachieving 
school district could provide supplemental services to its students. 
While the Secretary has implemented regulations that prohibit a 
district identified as in need of improvement from serving as a 
tutoring provider, some districts have challenged that regulation.
    When Congress revisits No Child Left Behind in 2007, there will be 
heavy pressure from lobbying groups that want changes that would weaken 
the accountability system at the heart of this bipartisan education 
reform law. My hope is that Congress will continue to resist the 
temptation to make such short-sighted changes, and will improve on the 
law by addressing both of these issues as part of any reauthorization 
package.
    [Lastly, while public schools have a responsibility to children, 
parents, and taxpayers, private tutoring providers do too. Many in the 
tutoring industry have voluntarily adopted quality standards to ensure 
the principles of No Child Left Behind are honored. I applaud the 
industry for taking these steps. I also expect that Secretary Spellings 
and the Department of Education will soon be providing further guidance 
on this topic. My hope is that the Department's forthcoming guidance 
will provide appropriate safeguards for children and taxpayers without 
stepping on states' rights or discouraging quality providers from 
offering their services to disadvantaged children.]
    With that, I'd like to welcome the witnesses who have joined us 
today, and I would turn to the senior Democratic member, Mr. Miller, 
for any opening statement he may wish to make.
                                 ______
                                 

 STATEMENT OF HON. GEORGE MILLER, RANKING MEMBER, COMMITTEE ON 
                  EDUCATION AND THE WORKFORCE

    Mr. Miller. Thank you, Mr. Chairman. Thank you for calling 
this hearing. I think this hearing is terribly important and 
timely as we look at the question of not only the issue of 
supplemental services right now, but what is going to happen in 
the future with these services as they become more in demand. 
And I thank you for the panelists you have assembled.
    No Child Left Behind takes important steps to ensure that 
low-income children have access to after-school tutoring that 
their middle- and high-income peers have always had. Our 
witnesses today have a range of experience in this area, and I 
am eager to hear their perspectives on implementation of the No 
Child Left Behind supplemental educational services provisions 
to date, particularly with the thoughts of how Congress and the 
Department of Education can and should be doing to make sure 
that children are consistently getting high-quality services.
    I recently spent 2 days in Chicago meeting with teachers, 
principals, parents and district administrators about their 
reform over the past decade. Their progress is real, 
substantial and very encouraging. And I want to thank them for 
sending Ms. Swanson today to share her experiences with this 
provision of the goal.
    A key goal of No Child Left Behind is to eliminate the 
achievement gap among low-income and minority children. For 
years we didn't want to talk about the kids at the bottom. Now 
we are talking, and while it is getting heated at times, 
overall it has been a healthy debate, and it is leading to 
important changes.
    One way the law tries to address the achievement gap is 
through what is often falsely and in sort of a bizarre fashion 
referred to as a sanction; the idea that you would offer these 
tutoring and supplemental services is somehow viewed as a 
sanction by many within the educational accomplishment. I would 
consider and I think the parents have demonstrated that they 
consider this an added benefit for their children, the 
opportunity to participate in ongoing after-school tutoring to 
improve their academic achievement.
    No Child Left Behind gives low-income parents the ability 
to choose from among a range of approved providers for their 
children. I am concerned, however, that all too often parents 
are being offered providers that are not necessarily effective 
or appropriate because the States do not live up to their 
monitoring and oversight responsibilities. I am concerned that 
the Department of Education is encouraging States to err on the 
side of offering many choices at the expense of ensuring high-
quality choices.
    I am also concerned that parents of children with 
disabilities and limited English proficiencies are not being 
given the same choices as other parents due to the Department 
of Education's regulation that seems to prohibit school 
districts in need of improvement from continuing the 
supplemental service providers except for students of 
disabilities and LEP students. While school districts may be 
uniquely suited to continue these services, it is worth asking 
why these parents shouldn't have more choices like other 
parents do. The law itself does not prohibit districts from 
continuing as providers for all children, and they have proven 
and have often reached more children at lower costs with the 
same teachers. This is a regulatory problem, and a practical 
effect of this legislation is that a provider who is not deemed 
to be suitable for all students due to the quality concerns is 
deemed to be acceptable for students with disabilities and 
English learners. I hope the Department will rethink their 
regulations on this.
    Finally, I am concerned about the reports of inducements 
such as parents being given free computers, discount coupons, 
signing bonuses in exchange for selecting certain providers for 
their children. This bill was designed to provide competition. 
It was designed to provide for entrepreneurship. It was 
designed to provide for the private sector to participate in 
the education of these children and the nonprofits and others 
outlined in the bill. It was not designed for a lot of suede-
shoe operators to come in and offer programs that aren't 
tested, that have no history of effectiveness, and are 
providing inducements to parents to get them to select that 
particular program. And many of these are now coming out of the 
woodwork and preying on parents and putting undue and 
inappropriate pressure on them to select providers that may not 
be the most qualified or the best suited to tutor their 
children.
    I am very interested in the thoughts of our witnesses how 
we can assure that we provide these children the high-quality 
providers that are approved by the State. A number of my 
colleagues, I am including Representatives Kildee, Woolsey, 
Andrews, McCollum, recently requested a GAO investigation as to 
how States are implementing supplemental service provisions. 
This includes a look at the steps that the States are taking or 
not taking to ensure that approved providers are offering high-
quality services, how academic content is being taught by 
supplemental service providers in alliance with the district 
and the State standards and the curriculum, because, again, we 
are starting to get a significant number of complaints that the 
supplemental providers have little to do with the curriculum 
that the children are being taught and the impact of 
supplemental services on student achievement.
    I think these are important questions. I am delighted that 
my colleagues joined in asking these questions of the GAO 
because they are very important when we are envisioning, as 
many have suggested, that this may be a $2 billion expenditure 
of funds. We have to know the effectiveness of these programs 
and the quality of these programs.
    And with that, Mr. Chairman, I look forward to the 
testimony of the witnesses and thank you again for calling this 
hearing.
    Chairman Boehner. Thank you, Mr. Miller.
    [The prepared statement of Mr. Miller follows:]

Statement of Hon. George Miller, Ranking Member, Committee on Education 
                           and the Workforce

    Good morning. I would like to thank Chairman Boehner for calling 
this hearing. I'm looking forward to today's hearing because it focuses 
on implementation of an important NCLB provision: supplemental 
educational services.
    No Child Left Behind takes important steps to ensure that low-
income children have access to the after school tutoring that their 
middle and high-income peers have always had.
    Our witnesses have a range of experiences in this area and I am 
eager to hear their perspectives on implementation of NCLB's 
supplemental education services provisions to date, particularly their 
thoughts on what Congress and the Department of Education can and 
should be doing to make sure that children are consistently getting 
high-quality services.
    I recently spent two days in Chicago meeting with teachers, 
principals and parents about the reforms there over the past decade. 
Their progress is real, substantial, and very encouraging. I 
congratulate them for their progress and am particularly interested in 
hearing from the representative from Chicago Public Schools about their 
experience with this provision of the law.
    A key goal of NCLB, which I know all of us share, is to eliminate 
the achievement gap among low-income and minority children. For years 
we didn't want to talk about kids at the bottom. Now we are and, while 
it can get heated at times, overall it's been healthy and it's leading 
to important changes.
    One way the law tries to address the achievement gap is through 
what is often falsely referred to as a ``sanction''--but what I 
consider to be an added benefit to low-income children: the opportunity 
to participate in ongoing after school tutoring to improve their 
academic achievement.
    While the intent of this provision is good, recent reports on the 
Department of Education's implementation of this provision are 
troubling.
    We hear a lot about the importance of NCLB's disaggregated data 
empowering parents across the country. Something we hear less about is 
the power NCLB gives low-income parents to choose from among a range of 
approved providers for their children. I am concerned, however, that 
all too often parents are being offered providers that are not 
necessarily effective or appropriate when states do not live up to 
their monitoring and oversight responsibilities. I am concerned that 
the Department of Education is encouraging states to err on the side of 
offering many choices at the expense of ensuring quality choices.
    I am also concerned that parents of children with disabilities and 
children with Limited English Proficiency are not being given the same 
choices as their peers due to the Department of Education's regulation 
that prohibits LEAs ``in need of improvement'' from continuing as 
supplemental service providers.
    A fundamental problem with this policy is that it is inconsistent 
and unfair to students with disabilities and students with Limited 
English Proficiency (LEP) because LEAs ``in need of improvement'' do 
continue to provide these services to these children, as necessary. The 
practical effect of this regulation is that a provider that is not 
deemed suitable for all students due to quality concerns is deemed 
acceptable for students with disabilities and LEP students. The law 
itself does not prohibit districts from continuing as providers for all 
children, and they have proven they can often reach more children at a 
lower cost with the same teachers. I hope the Department will re-think 
its regulations on this.
    Finally, I am very concerned about reports of inducements--such as 
parents being given free computers, discount coupons, or signing 
bonuses--in exchange for selecting certain providers for their 
children. Suede-shoe operators are coming out of the woodwork and, in 
some cases, preying on parents and putting undue and inappropriate 
pressure on them to select providers that may not be the most qualified 
or best suited to tutor their children. I am very interested in the 
thoughts of the witnesses as to how we can ensure that only high-
quality providers are approved.
    A number of my colleagues and I--including Representatives Kildee, 
Woolsey, Andrews, and McCollum--recently requested a GAO investigation 
of how states are implementing NCLB's supplemental educational services 
provisions. This includes a look at steps states are taking--or not 
taking--to ensure that approved providers are offering high-quality 
services, how academic content being taught by supplemental service 
providers aligns with district and state standards and curriculum, and 
the impact of supplemental education services on student achievement.
    Finally, I believe the best thing Congress could do to help fulfill 
the promise of NCLB is to fully fund the law at the level we and the 
President promised when it was enacted. To date we are $39 billion 
short, and this shortfall impacts schools across the board, including, 
I would assume, the capacity of states to monitor the quality of 
supplemental education service providers. While I have never suggested 
that improving education is only about money, but we cannot and will 
not get there without it.
    Thank you Mr. Chairman.
                                 ______
                                 
    Chairman Boehner. We have a distinguished panel of 
witnesses here today, and to introduce our first witness, the 
Chair would recognize the gentleman from Louisiana Mr. 
Boustany.
    Mr. Boustany. Thank you, Mr. Chairman. I am very pleased to 
introduce Donna Nola-Ganey, the assistant superintendent of the 
Louisiana Department of Education Office of School and 
Community Support. Ms. Ganey has served in an administrative 
capacity in the department of education for over 20 years and 
also has served as a teacher in the East Baton Rouge Parish 
school system. Her current responsibilities include 
administration of the division of nutrition assistance; the 
division of family, career and technical education; the 
division of school and community support. Some of the program 
areas under her direction are nutrition; health; after-school/
migrant education; Title IV Safe and Drug-Free Schools and 
Communities; and most relevant to this hearing, supplemental 
educational services.
    Ms. Nola-Ganey has received both her bachelor's degree and 
master's degree from Louisiana State University, and I am 
honored to introduce such a distinguished individual from our 
great State of Louisiana Ms. Donna Nola-Ganey.
    Chairman Boehner. I will introduce the other three 
panelists, and then we will proceed.
    Our second witness today will be Mr. Kevin Teasley. Mr. 
Teasley founded the nonprofit GEO Foundation in 1998 upon the 
belief that all children should have access to a quality 
education. And through its outreach in programs, the GEO 
Foundation strives to make educational choice a reality by 
empowering families in the creation of new options. In 
implementing that notion, the GEO foundation has been approved 
by Indiana as a supplemental educational services provider and 
currently providing services in Indianapolis Public Schools and 
Gary Public Schools.
    We will then hear from Jeffrey Cohen. Mr. Cohen is 
president of Catapult Learning, formerly Sylvan Educational 
Solutions, the Nation's leading provider of instructional and 
support services to schools and school districts. At the 
beginning of the 2003-2004 school year, Catapult Learning was 
approved as a supplemental educational services provider in 31 
States. And while at Sylvan, Mr. Cohen also established the 
Sylvan Learning Foundation, the best practices in K through 12 
and higher education, and served as the foundation's executive 
director.
    Then we will hear from Ms. Beth Swanson. Ms. Swanson serves 
as the director of the Office of After-School and Community 
School Programs for the Chicago Public Schools. In this 
capacity Ms. Swanson helps to ensure there is a diverse 
offering of high-quality programs available to Chicago public 
school students outside of their regular school day, including 
seven major after-school initiatives. She is also appointed to 
or is serving on the State Leadership Team, the Illinois After-
School Partnership, the After-School Task Force, and 
Renaissance of 2010, an education support group.
    So you all know about the time line. You get 5 minutes. You 
need a little more, don't get nervous, just take it. We are 
pretty nice here.
    With that, Ms. Nola-Ganey, you may begin.

STATEMENT OF DONNA NOLA-GANEY, ASSISTANT SUPERINTENDENT, OFFICE 
 OF SCHOOL AND COMMUNITY IMPROVEMENT, LOUISIANA DEPARTMENT OF 
                   EDUCATION, BATON ROUGE, LA

    Ms. Nola-Ganey. Thank you, Mr. Chairman and members of the 
committee. It is an honor to be here to have the opportunity to 
tell you about Louisiana's supplemental educational services 
program. I am going to get right into the presentation. I 
believe we have a PowerPoint, or we did have a PowerPoint--
there it is. Thank you.
    I would like to focus on three areas: Our monitoring and 
oversight of SES at the State level, including our Web-based 
student tracking and reporting system that we call STARS; our 
planned evaluation; and a few recommendations for other States.
    Currently Louisiana has 26 SES providers on our State-
approved list. Forty-five schools in five school districts are 
required to offer SES, with 40 of those 45 schools in New 
Orleans. We are serving 3,700 students currently in SES.
    Now, Mr. Miller, a great deal of effort goes into our 
selection of the providers in Louisiana. We take extra steps to 
ensure that only quality providers are included on the State-
approved list. And in the testimony that I have provided, I 
have listed ways that we have done that.
    As far as our monitoring process, we make at least two site 
visits a year to the providers, using our monitoring instrument 
that we developed to document program compliance. Additionally, 
both the State and the district have the ability to monitor 
student attendance and progress daily through our on-line data 
system, and because of this we are able to target providers for 
technical assistance to ensure that students are getting the 
best possible tutoring services.
    Let me tell you a little bit about our student tracking 
system. As we, like many other States, struggle to implement 
SES, our Web-based student tracking and reporting system has 
proven to be a great benefit. We can tell which students 
receive a service and how much of it they receive. We use the 
STARS data tracking with two other of our after-school programs 
that we administer. Therefore, the program's development costs 
were shared, and it was affordable for us to do this, 
providers' input, student attendance and contact hours, and 
they use the system to invoice districts for services rendered. 
So as a result, the State and the district have 24/7 access to 
the information.
    All the STARS is completely Web-based. It provides the 
highest level of security possible, and it is housed on a 
secure----
    Mr. Miller. When you say it is Web-based, is this a system 
you designed, or are you using a larger Web-based system?
    Ms. Nola-Ganey. We designed it with a contractor.
    The STARS is completely web-based, but it provides the 
highest level of security possible, and it is housed on a 
secure SQL server along with a copy of our statewide student 
information system. And because Louisiana has a student 
information system for all public school students in 
kindergarten through 12th grade, we are able to match the STARS 
data with the student information data to be able to validate 
that students are, in fact, SES services in eligible Title I 
schools. And we have safety checks built in as well, so that 
students can't be enrolled in multiple programs scheduled for 
the same day and the same time.
    And let me just show you a few slides of our screens for 
the STARS system. This is our enrollment screen, and this is 
the first step for providers to enter into the system. And then 
the session calendar, each provider has a calendar that can be 
accessed, and you click on the class day and the time, and you 
will be able to see which student is scheduled by each 
provider.
    And then this is the provider's monthly billing report. 
This report is automatically generated from the attendance and 
contact hours that are entered by the providers. And this is 
the main reason providers don't complain about having to input 
the data, because they benefit from having the billing forms 
automatically generated.
    And you can see the many reports that are available, from 
the class roster to the student retention reports. But probably 
of all these reports up here, the most useful, especially for 
the State, is the program statistics report. With this report, 
you can't see it clearly up there, I apologize, but this report 
compiles all the program information on each provider, and it 
allows the State to look what is going on with each provider on 
a daily basis, and that allows us to do targeted assistance 
with each of the providers who are not meeting their goals.
    Quickly, the evaluation system. We have contracted with Dr. 
Steve Ross from the Center For Research in Education Policy to 
do a formal comprehensive evaluation of the program in 
Louisiana. Because of our data system, we will be able to 
measure students' gains by matching students who participated 
in the program with our State test data. We don't have to rely 
on the providers to just give us their pre-post data. We can 
actually match State data with the students who participate in 
the program. Hopefully we are going to be able to have a better 
understanding of how many hours of tutoring it takes to 
increase student achievement.
    Also included in the evaluation design is to look at 
students in a school who participated in SES versus the 
students in the same school who didn't participate in SES. And 
Dr. Ross is working with our data people to try to get that 
information all the way down to the classroom level. And then 
also we have surveys of teachers, parents and principals 
included in the evaluation design.
    Some key recommendations for States. I was asked to give 
you a few key recommendations, and one is--the only one I am 
going to talk about from the list is we recommend that a 
student tracking system be implemented in States. It is 
critical in order to get a handle on the daily operations of 
what is going on with the service providers.
    What we are learning. Finally I would like to tell you what 
we are learning as we work diligently to implement this part of 
the No Child Left Behind Act. Attendance in these programs is a 
major challenge, but even more so are the completion rates of 
students. Part of the problem is lack of parents' involvement 
or understanding of the importance of these services. So the 
State may need to step in and help make the community aware of 
the program so that more parents will take advantage of it.
    This year the department of education conducted a campaign 
in New Orleans. We had billboards, radio spots, cable car signs 
and flyers plastered all over the community. We reached out to 
the faith-based community to help us get the word out. They 
talked to parents from the pulpit. We did have a significant 
increase in the enrollment in New Orleans, but it was not 
nearly enough. There are 18,000 students who qualify in New 
Orleans alone, and statewide we only serve 3,700. We continue 
to try to make SES in Louisiana help to increase student 
achievement.
    And with that, here is my contact information, and we are 
more than willing to share with you or any other State. Thank 
you.
    [The prepared statement of Ms. Nola-Ganey follows:]

  Statement of Donna Nola-Ganey, Assistant Superintendent, Office of 
 School and Community Improvement, Louisiana Department of Education, 
                            Baton Rouge, LA

    Louisiana is one among many states working diligently to meet and, 
if possible, exceed the expectations set forth by the NCLB Act. The 
Louisiana Department of Education is proud of its progressive 
implementation of effective and meaningful Supplemental Educational 
Services (SES). Currently, there are 26 Supplemental Education Services 
providers in Louisiana, servicing 46 schools and nearly 3,700 students.
    In brief, here is a description of how Louisiana tracks and 
monitors Supplemental Education Services.
    Using a rigorous selection process, the Louisiana Department of 
Education has a follow-up meeting face-to-face or a telephone interview 
with all applicants before final recommendations are sent to the Board 
of Elementary and Secondary Education. The RFP requires that applicants 
have a design for an Individual Learning Plan, along with measurement 
of individual student progress, pre- and post- assessments using CRTs 
or NRTs, a strong connection between assessment and instruction, and a 
strong connection between instruction and standards. The interview 
allows us to make certain that high scoring applicants can validate 
their program design and capacity to serve students. Applicants apply 
to become ``fully approved'' or ``new and emerging providers.'' New and 
emerging providers have limited evidence of effectiveness in providing 
similar academic services to students. New and emerging providers also 
have a cap on enrollment of 200 students served per school year; 
however, the fully approved provider meets all requirements for 
providing high quality SES, and their enrollment is unlimited.
    Approved providers as well as district personnel are required to 
attend department-sponsored workshops to become familiar with state 
expectations relative to supplemental education services, assessment, 
the state's web-based data tracking system, and state monitoring 
guidelines for compliance with NCLB.
    Each supplemental education provider is officially monitored on 
site at least two times a year, with technical assistance offered by 
the department on an as-needed basis, in addition to occasional 
unannounced visits.
    A department monitoring instrument is used to document the 
programmatic compliance of a provider's service as it relates to the 
tutoring model initially approved by the state. If the program is able 
to adequately demonstrate that it is following the guidelines approved 
by the state and is fulfilling the promise of sound targeted 
remediation, the provider is deemed to be ``in compliance,'' and a 
letter from the State Superintendent of Education indicating such is 
sent to the provider, accompanied by a copy of the completed monitoring 
instrument.
    In the event a provider is not meeting the state's guidelines for 
an effective supplemental education provider, the program is then 
deemed ``out of compliance.'' The State Superintendent of Education 
sends a letter articulating the program's deficiencies to the provider, 
copied to the district superintendent, requesting a ``plan of action'' 
to correct the deficiencies be submitted to the department in no more 
than 30 days from the receipt of the letter.
    All Supplemental Education Service providers are required to 
maintain program data, including class sessions, student attendance, 
academic progress on pre- and post- assessments, and basic student 
demographic information using a web-based Student Tracking and 
Reporting System, referred to as ``STARS.'' Louisiana Department of 
Education staff is able to regularly monitor a provider's usage of 
STARS, ensuring the provider is entering and maintaining vital student 
data in a timely manner.
    At the beginning of the 2004-2005 school year, Louisiana Department 
of Education staff set up statewide, one-day training sessions to 
introduce STARS to state-approved providers and district-level 
personnel. Subsequent to these one-day training sessions, department 
staff provided technical assistance by phone, site visits, and 
scheduled one-on-one sessions. A Help Desk is also available if 
problems arise.
    The STARS database system was developed in response to the need to 
systematically qualify and quantify the various interventions provided 
outside of the regular school day, while at the same time assisting 
providers, schools, and the state to manage and evaluate programs.
    Once a provider has been ``set up'' in STARS by the state 
administrator, the provider is able to establish and define sites, 
create sessions (classes), enroll students, and generate forms. A site-
level user can only enter and maintain attendance, modify attendance 
calendars, and generate pre-designated forms relative to his/her 
specific site.
    The ``sessions'' created by a provider are based upon the days and 
times of service, with ``safety checks'' built in so that students 
cannot be enrolled in multiple programs scheduled for the same day and 
time. SES providers select from a menu that includes math, reading, or 
language arts, and they have fields to record pre- and post-tests.
    Once the sessions are created, they are populated with students 
drawn from the Louisiana Department of Education's Student Information 
System, also known as ``SIS,'' which is loaded into the same server 
housing STARS. Attendance and class rosters are automatically created 
in the STARS student database once a session is populated.
    STARS is currently used to track individual students served through 
Supplemental Education Services, Teen Pregnancy Prevention, and after 
school programs funded by the Office of School and Community Support. 
By identifying unique subgroups of students by the services and 
interventions they receive, the department can then match state test 
files, dropout data, retentions, special needs status, and other 
individual student information to measure impacts. Because many of the 
technical aspects of matching individual student data are ``behind the 
screens,'' student privacy is protected.
    Currently, the Louisiana Department of Education uses STARS to 
collect and organize student enrollment and attendance data by 
district, school, provider, hours of service, average daily attendance, 
program completion, pre- and post-SES scores, free/reduced lunch 
status, and demographics. Once a provider has been ``set up'' in STARS, 
the provider is able to establish and define sites, create classes or 
sessions, enroll students, and generate forms. A site-level user can 
only enter and maintain attendance, modify attendance calendars, and 
generate pre-designated forms relative to his/her specific site.
    The ``sessions'' created by a provider are based upon the days and 
times of service, with ``safety checks'' built in so that students 
cannot be enrolled in multiple programs scheduled for the same day and 
time. SES providers select from a menu that includes math, reading, or 
language arts.
    Once the sessions are created, they are populated with students 
drawn from the Louisiana Department of Education's Student Information 
System, also known as ``SIS.'' Attendance and class rosters are 
automatically created in the database once a session is populated.
    Because STARS was designed from the start to be a tool for the 
different stakeholders, monthly billing forms include an alphabetical 
listing of students by name and school, a complete attendance record 
for each student for the billing period, and the remaining per pupil 
allocation (PPA). With these documents, districts as well as providers 
with multiple sites can oversee the activity and effort put forth at 
each site and by each program.
    On a more basic level, STARS affords providers a user-friendly 
medium with which to track enrollment and attendance and which, with a 
click of the mouse, generates the monthly billing invoice to be 
submitted to the districts.
    The Department of Education or a state-level administrator enters 
the initial information about a provider and the individual contract 
into STARS.
    Although STARS is completely web-based, it provides the highest 
level of security possible and is housed on a secure SQL server along 
with a copy of the statewide Student Information System.
    The Louisiana Department of Education purposely assumed an 
instrumental role in the database design not with the motive of 
creating a reporting instrument to make the department's job easier, 
but rather with the specific intent to create a tool for providers with 
safety checks for districts. Consequently, the department has a 
database that is extremely rational and practical, highly utilized, and 
protective of individual student information.
    The STARS database comes very close to providing an ideal, single 
reporting system that meets the individual needs of providers, schools, 
districts and the state.
                                 ______
                                 
    Chairman Boehner. Mr. Teasley.

    STATEMENT OF KEVIN TEASLEY, FOUNDER AND PRESIDENT, GEO 
                  FOUNDATION, INDIANAPOLIS, IN

    Mr. Teasley. Thank you for having me, Chairman. I was very 
impressed with that presentation and what I heard, but that is 
not what you asked me to come here and talk about. Chairman 
Boehner and Ranking Member Miller and Members of Congress, 
thank you for this opportunity to provide testimony to you 
regarding the important issue of supplemental education 
services. I am humbled by your invitation to speak today and 
hope that my comments provide you some valuable input to help 
you form future policy recommendations and laws.
    GEO Foundation is a nonprofit organization based in 
Indianapolis, Indiana. It was founded in 1998. Today GEO has 
four main programs. We have operated a charter school in 
Indianapolis for the past 3 years, and we are scheduled to open 
three more charter schools this fall: An additional one in 
Indianapolis, one in Gary, Indiana, and one in Colorado 
Springs. We also operate a Charter School Service Center to 
assist in the success of all charter schools in the State of 
Indiana.
    In addition, we are a recipient of a U.S. Department of 
Education grant, Parent Information and Resource Center grant, 
that provides us the opportunity to engage and educate parents 
in the understanding of their rights and opportunities afforded 
them under No Child Left Behind. The PIRC grant is centered on 
the Indianapolis area. We do similar work in Gary and in 
Colorado with an additional grant we received from the U.S. 
Department of Education.
    Last and most important to this afternoon's discussion, we 
are an Indiana-approved supplemental education service provider 
and currently operate in Indianapolis and Gary. Our program 
takes students where they are and focuses on getting their 
reading and math skills up to where they need to be. We charge 
the districts $18 per hour per student. In Indianapolis, we can 
provide 80 hours of service to each eligible child. That is 2 
hours a week for 40 weeks, basically a school year. We believe 
that it is important to offer sustained tutoring services over 
a period of time if the students are to retain lessons learned. 
Our students have improved their reading and math skills by an 
average of 5 months academically after just 9 weeks, or 36 
hours, in our program. One student recently told his 
grandmother that he, quote, didn't feel stupid anymore after he 
completed our tutoring program.
    One key lesson that we have learned by providing SES is 
that needing a tutor isn't enough to attract a student. 
Effective marketing counts. Even though there are more than--
and I want to correct my written testimony, I wrote 6,000 
students in IPS who need tutoring. That is 6,000 students who 
are eligible for the first part, the public school choice 
component of NCLB. They are in year one. It is 1,200 students 
who are eligible for tutoring in year two or more. It isn't 
enough to say you are a State-qualified provider and that your 
service is free to the student and expect students to come. You 
must be aggressive in your marketing. You not only must attend 
the school night SES affairs, you must constantly follow up 
with students and their parents to find out why they didn't 
show up at their scheduled time, and they need to constantly be 
aware that other providers are trying to attract their students 
to go with them.
    We have lost several students to other providers because 
other providers give incentives, such as gift certificates to 
their students. To date, we have not provided incentives other 
than the guarantee that you will learn and improve grades. 
However, in a recent conversation I had with IPS, Indianapolis 
Public School system, I believe we will begin to provide some 
incentive package to students for completing a percentage and/
or all of the program hours we provide. IPS liked what we are 
doing, and they want students to use our program, but they are 
aware that other providers are using incentives to attract 
students.
    GEO is currently seeking a grant to support its tutoring 
program and recently received the attached letter, which I 
submitted in the testimony, from IPS recommending our tutoring 
program. Although GEO believes that learning and improved 
grades should be enough motivation, we have learned that 
perhaps small, reasonable incentives for improved academic 
achievement may keep students in the program for longer periods 
of time, leading to increased gains for both the student, 
school and district. The States may want to consider having a 
written policy, what type of timing of incentives may be used 
in a particular State so that providers in districts know the 
rules up front.
    At GEO, we primarily use a certified and licensed teacher 
to provide our services. We augment our certified teachers with 
qualified and trained college students, who assist the teachers 
in providing services, in working with the students. Our 
program focuses on improving reading and math skills.
    For background purposes, I thought it may be useful for 
Members of Congress to understand the process which we have to 
go through to get to the point of actually providing services 
to the students. First we must apply to the State to be a 
qualified provider. This application process took place in the 
spring, it does every year, and allows you to start providing 
services in the following fall. Once you are approved, you then 
need to work with the local districts to make sure they include 
you in their outreach efforts and sign a contract with the 
local district where the services are to be rendered. In 
Indianapolis, we had to sign a purchase order even though we 
had not yet started to provide services. The district needed to 
budget accordingly, so they said they needed a purchase order. 
We worked with them to get this done, and this process went 
rather smoothly. We then provided information to the district, 
and they mailed information packets to all SES providers, to 
all eligible students. They hosted parents nights at schools, 
and we attended each of these.
    To get paid for services rendered, the district requires 
four signatures, one by the principal, the teacher, the parent 
and the student, on a contract detailing the services to be 
provided. Then we must turn in time sheets signed by the 
students, teachers, principals and parents. These are good 
policies and should lead to effective rendering of services. I 
would encourage schools to use these same policies during the 
provision of their programs during the day.
    One concern I have about the SES program is that it doesn't 
really matter how many hours of tutoring an SES program 
provides to students. The district simply states that each 
student is worth X amount of dollars. In Indianapolis, the 
district has set an available amount of funds for tutoring at 
the rate of about $1,400 per student. The district does not set 
limits on the per-hour rate that can be charged. So one SES 
program may charge $100 an hour, while another, like us, may 
charge $18 an hour. In this example, the first SES provider 
will only provide 14 hours of service and receive $1,400 in 
return. The second provider will provide 80 hours of service 
for the same amount of money. The first provider will get in 
and out quickly. The second will be in for quite a bit longer 
period of time. And while we believe being in for a long time 
has advantages, it also has its challenges, as students move to 
other providers, move out of the district or just drop out of 
the program altogether.
    The States may want to consider adding as part of its 
approval process a required range of hours to be provided. 
Having a range of hours ensures a minimum number of hours are 
provided to these students, while allowing for variation among 
providers and delivery methods.
    As for the issue of ``needing improvement'' districts 
providing SES programs, such districts face many challenges and 
constraints in bringing up their schools' academic achievement. 
Last year I visited a group of principals in Gary, Indiana, 
with a team from the U.S. Department of Education, to review 
their implementation of SES programs and was struck by the fact 
that the principals were embracing the after-school program 
because it was so effective. But when asked if they had 
instituted the effective program in their daily and regular 
school program, they said no. When asked why not, they said, 
the district. The fact is SES is helping good programs get to 
students. That is the good news. The bad news is that the good 
programs are not being used during the day at school when it is 
most needed.
    If these needs improvement school districts want to make a 
change, it likely would be more effective to adopt some of the 
successful math and reading programs that are used in the SES 
programs during the school day rather than taking on the 
additional time and burden of operating their own SES program. 
In our experience in Indianapolis, our close partnership in 
collaboration with the district means that the district can 
focus on the core academics during the school day, and we can 
focus on the after-school instruction leading to a more 
effective use of both organizations' resources, and hopefully 
in time improved academic achievement throughout the district.
    With that, Mr. Chairman, I am happy to respond to any 
questions that you or any member of the committee may have.
    Chairman Boehner. Thank you.
    [The prepared statement of Mr. Teasley follows:]

  Statement of Kevin Teasley, Founder and President, GEO Foundation, 
                            Indianapolis, IN

    Chairman Boehner, Ranking Member Miller, and Members of Congress, 
thank you for this opportunity to provide testimony to you regarding 
the important issue of supplemental education services. I am humbled by 
your invitation to speak today and hope that my comments provide you 
some valuable input to help form your future policy recommendations and 
laws.
    GEO Foundation is a non-profit organization based in Indianapolis, 
Indiana. It was founded in 1998. Today, GEO Foundation has four main 
programs. We have operated a charter school in Indianapolis for the 
past three years and we are scheduled to open three more charter 
schools this fall--one in Gary, an additional one in Indianapolis, and 
one in Colorado Springs. We also operate a Charter School Service 
Center to assist in the success of all charter schools in Indiana.
    In addition, we are a recipient of a U.S. Department of Education 
Parent Information and Resource Center grant that provides us the 
opportunity to engage and educate parents in the understanding of their 
rights and opportunities afforded them under NCLB. The PIRC grant work 
is centered on the Indianapolis area. We do similar work in Gary and 
Colorado with an additional grant we received from the U.S. Department 
of Education.
    Lastly, and most importantly to this afternoon's discussion, we are 
an Indiana approved supplemental education service provider in the 
state of Indiana and currently operate in Indianapolis and Gary.
    Our program takes students where they are and focuses on getting 
their reading and math skills up to where they need to be. We charge 
$18 per hour. In Indianapolis, we can provide 80 hours of service to 
each eligible child--that is two hours per week for 40 weeks. We 
believe that it is important to offer sustained tutoring services over 
a period of time if students are to retain lessons learned. Our 
students have improved their reading and math skills by an average of 
five months academically after just nine weeks or 36 hours in our 
program. One student recently told his grandmother that he ``didn't 
feel stupid anymore'' after he completed our tutoring program.
    One key lesson that we have learned by providing SES program is 
that needing a tutor isn't enough to attract a student, effective 
marketing counts. Even though there are more than 6,000 students in IPS 
who need tutoring, it isn't enough to simply say you are a state-
qualified provider, that your service is free to the student, and 
expect students to come. You must be aggressive in your marketing. You 
not only must attend the school night SES fairs, you must constantly 
follow up with students and their parents to find out why they didn't 
show up at their scheduled time, and you need to constantly be aware 
that other providers are trying to attract your students to go with 
them. We have lost several students to other providers because other 
providers give ``incentives'' such as gift certificates to their 
students. To date, we have not provided incentives other than the 
guarantee that you will learn and improve your grades. However, in a 
recent conversation I had with IPS, I believe we will begin to provide 
some incentive package to students for completing a percentage and/or 
all of the program hours we provide. IPS likes what we are doing and 
they want students to use our program but they are aware that other 
providers are using incentives to attract students. GEO is currently 
seeking a grant to support its tutoring program and recently received 
the attached letter of recommendation from IPS.
    Although GEO believes that learning and improved grades should be 
enough motivation, we have learned that perhaps small, reasonable 
incentives for sustained attendance or improved academic achievement 
may keep students in the program for longer periods of time leading to 
increased gains for both the student, school and district. The States 
may want to consider having in place a written policy of what type and 
timing of incentives may be used in a particular State so that 
providers and districts know the rules up front.
    At GEO we primarily use a certified and licensed teacher to provide 
our services. In addition we augment our certified teachers with 
qualified and trained college students who assist the teachers in 
providing services and working with students. Our program focuses on 
improving reading and math skills.
    For background purposes, it may be useful for members of Congress 
to understand the process which we have to go through to get to the 
point of providing services to students. First, we must apply to the 
state to be a qualified provider. This application process takes place 
in the spring of each year and allows you to start providing services 
in the following fall. Once you are approved, you then need to work 
with the local districts to make sure they include you in their 
outreach efforts and sign a contract with the local district for 
services to be rendered. In Indianapolis, we had to sign a purchase 
order even though we had not yet started to provide services. The 
district needed to budget accordingly so they said they needed a 
purchase order. We worked with them to get this done. This process went 
smoothly.
    We then provided information to the district and they mailed 
information packets with all SES provider information to all eligible 
students. They hosted parent nights at schools, too. We attended each 
of these.
    To get paid for services rendered, the district requires four 
signatures--one by the principal, the teacher, the parent and student--
on a contract detailing the services to be provided. Then we must turn 
in time sheets signed by students, teachers, principals and parents. 
These are good policies and should lead to effective rendering of 
services. I would encourage schools to use these same policies during 
the provision of their programs during the school day.
    One concern I have about the SES program is that it doesn't really 
matter how many hours of tutoring an SES program provides to students. 
The district simply states that each student is worth x amount of 
dollars. In Indianapolis, the district has set an available amount of 
funds for tutoring at the rate of about $1400 per student. The district 
does not set limits on the per hour rate that can be charged so one SES 
program may charge $100 per hour of tutoring while another may provide 
tutoring for $18 per hour like we do. In this example, the first SES 
provider will only provide 14 hours of service and receive $1400 in 
return. The second provider will provide 80 hours of service for the 
same amount of money. The first provider will get in and out quickly, 
the second will be in for quite a bit longer period of time. And, while 
we believe being in for a long time has advantages, it also has its 
challenges as students move to other providers, move out of the 
district, or just drop out of the program altogether. The States may 
want to consider adding as part of its approval process a required 
range of hours to be provided. Having a range of hours ensures a 
minimum number of hours are provided to these students, while allowing 
for variation among providers and delivery methods.
    As for the issue of ``needing improvement'' districts providing SES 
programs, such districts face many challenges and constraints in 
bringing up their schools academic achievement. For example, last year, 
I visited a group of principals in Gary with a team from the U.S. 
Department of Education to review their implementation of SES programs 
and was struck by the fact that the principals were embracing the after 
school tutoring program because it was so effective but when asked if 
they had instituted the ``effective'' program in their daily and 
regular school program they said no. When asked why not, they said, 
``the district.'' The fact is SES is helping good programs get to 
students. That is the good news. The bad news is that the good programs 
are not being used during the day at school when it is most needed.
    If these ``needs improvement school districts'' want to make a 
change, it would likely be more effective to adopt some of the 
successful math and reading programs that are used in the SES programs 
during the school day rather than taking on the additional time and 
burden of operating their own SES program. In our experience in 
Indianapolis, our close partnership and collaboration with the district 
means that the district can focus on the core academics during the 
school day, and we can focus on the after school instruction leading to 
a more effective use of both organization's resources and hopefully in 
time improved academic achievement throughout the district.
    With that Mr. Chairman, I am happy to respond to any questions you 
or other Members of the Committee may have. Thank you.
    [An attachment to Mr. Teasley's statement follows:]

April 10, 2005

To Whom It May Concern:

    The GEO Foundation. has served the Indianapolis Public Schools as a 
reliable and conscientious provider of Supplemental Educational 
Services for our students.
    In my work with GEO Foundation representatives, I have found them 
to display the highest level of cooperation, integrity and 
professionalism. The GEO Foundation staff members have maintained a 
collaborative partnership with the Indianapolis Public Schools 
Supplemental Educational Services staff as well as with our parents and 
students.
    GEO Foundation provides an intense instructional program while 
focusing on tutoring that is centered on the student's present academic 
level in language arts and mathematics. GEO Foundation provides a 
resource that is invaluable to our students and their families.

Sincerely,

Carrie Reinking
Supplemental Educational Services Liaison
Indianapolis Public Schools
120 E. Walnut St.
Indianapolis, IN 46204
                                 ______
                                 
    Chairman Boehner. Mr. Cohen.

STATEMENT OF JEFFREY COHEN, PRESIDENT, CATAPULT LEARNING, INC., 
                         BALTIMORE, MD

    Mr. Cohen. Thank you, Chairman Boehner and Ranking Member 
Miller and members of the committee, for inviting me here 
today. I am honored to be part of this important discussion 
about the supplemental education services provision of the No 
Child Left Behind Act.
    Catapult Learning is a subsidiary of Baltimore-based 
Educate, Inc., and a sister company to Sylvan Learning Center, 
the largest network of retail tutoring centers in the country. 
For more than 15 years, Catapult has partnered with schools and 
school districts to provide high-quality, research-based 
supplemental instruction to at-risk students. As a true public-
private partnership, we customize our broad suite of services 
from after-school instruction to special education to meet the 
needs of our school district partners. This school year we will 
provide services to more than 100,000 students in more than 150 
school districts.
    The SES provisions of the No Child Left Behind Act were 
established with bipartisan support to offer additional 
assistance to students who attend a Title I school that has not 
made adequate yearly progress for 3 consecutive years. The 
intent of the provisions is to provide immediate interim 
educational help to low-income children who attend 
underachieving schools.
    SES is working for hundreds of thousands of students across 
the country. Students like Graciana Nascimento, a seventh-
grader at Esek Hopkins School in Providence, Rhode Island. 
Graciana went from an F to a B-plus in reading on her report 
card last year after receiving free tutoring, tutoring her 
mother Delfina could not afford. Both Graciana and her mother 
credit the SES program as a catalyst for her improvement.
    We believe these programs have the potential to transform 
children's lives, to put them back on track educationally, to 
get them excited about learning and to instill the confidence 
that anything is possible.
    While some view SES as an experiment in public education, 
it is important to be clear about the hypothesis we believe is 
being questioned. At question should not be the efficacy of 
research-based tutoring as an effective method for 
supplementing a student's education. Indeed individualized and/
or small-group instruction has been used effectively for 
decades to help students increase achievement. What is being 
tested is whether providing low-income families the opportunity 
to choose the tutoring program that best meets the needs of 
their children will help offset the impact of low-performing 
schools.
    According to the Department of Education, approximately 
218,000 students participated in SES programs during the 2003-
2004 school year, an increase of more than 100 percent over the 
prior year. Unfortunately, there are many districts where 
participation is virtually nonexistent, and student 
participation in SES nationwide is clearly muted by a variety 
of challenges facing States, districts and providers. For 
instance, districts grapple with issues such as determining 
student eligibility, administering parent communications, 
managing access to school sites and contracting with multiple 
providers. States cite as our biggest challenge determining 
whether the services of providers are effective in raising 
student achievement, and providers often contend with seemingly 
unnecessary obstacles, including direct opposition to SES, lack 
of information about implementation plans and LEA regulation of 
State-approved programs.
    Over the past 3 years, we have experienced many of these 
challenges firsthand. We have seen parent notification letters 
that are impossible to decipher. We have seen multipart 
registration processes that seem to delay registration rather 
than encouraging it, and we have been prohibited from talking 
to school districts and school principals and parents. While we 
are hopeful that these practices will diminish, there is no 
doubt that such practices have prevented thousands of low-
income families from participating in the free after-school 
tutoring programs that they are entitled to by law. 
Alternatively, experience shows that when States, districts and 
providers collectively embrace SES, the result is thriving 
student participation, diversity of choice for parents and 
positive outcomes.
    The reluctance we are facing is easy to understand, but it 
is difficult to accept. SES is ground-breaking for public 
education because it established a competitive marketplace 
where competition, innovation, investment, successes and even 
failures are playing out. As a result, low-income parents are 
becoming educational consumers for the first time in their 
lives. These parents who do not have the means to move to 
suburban school districts or pay for private school tuition now 
have the power to make a purchasing decision that will impact 
their children's education. There is every reason to believe 
that these new education consumers will act as all consumers 
do, valuing quality, service and results above all else.
    As with all education reform, change takes time, and all 
involved must weather both successes and failures. The 
potential of SES programs is exciting, and the last thing we 
need is a rush to judgment based on anecdotes and scarce data. 
If SES programs prove unsuccessful, then they should be 
changed, but it is too early to make that determination. And if 
we modify this great public-private opportunity, let us do it 
for the right reason and not simply because it poses a threat 
to the status quo.
    It was 40 years ago this month that the Elementary and 
Secondary Education Act was signed into law creating the Title 
I program. Since then, we have spent more than $175 billion in 
an effort to close the achievement gap. Regardless of one's 
feeling about SES or No Child Left Behind, there is certainly 
consensus that the gap is still too large, high school dropout 
rates are too high, and we must accelerate our attempts to 
address these challenges. Last year it is estimated that a 
little more than 2 percent of Title I funds were spent to 
support SES programs, a relatively meager investment with the 
potential for a strong return.
    The most vexing problem surrounding SES implementation is 
the lack of consensus around the evaluation of program 
effectiveness. We, along with all State-approved providers, 
welcome full accountability for the results of SES programs. We 
believe there are several accountabilities inherent in the 
process of implementing these programs. For example, we are 
accountable to the school districts with whom we contract to 
provide services. We are similarly accountable to the 
principals who oversee the delivery of our programs in their 
buildings. Ultimately we are accountable to the parents who 
select our programs for their children.
    Still we realize that these built-in accountabilities are 
not enough. Under No Child Left Behind, the State has the 
responsibility to approve providers and evaluate their 
effectiveness. We believe States should use a variety of 
methods for determining effectiveness, including standardized 
test results, survey data, and compliance with provider 
applications.
    While the debate continues with respect to using 
standardized test data as an evaluation tool, we believe States 
can use claims made in provider applications as a way of 
validating that the provider's programs are effective. To 
accomplish this goal, we have recommended the establishment of 
a third-party validation system that can be used to determine 
whether providers have met the objectives set forth in their 
State applications. Such a neutral system will enable States to 
determine whether to renew a provider's application.
    The research is clear: High-quality, research-based 
tutoring programs can move the needle dramatically on student 
achievement. Ill-conceived, poorly executed programs do not. We 
need to arm our States and districts with the tools to tell the 
difference between the two so we can end the debate about 
effectiveness and focus collectively on raising student 
achievement.
    Once again, thank you for the opportunity to speak today.
    Chairman Boehner. Thank you, Mr. Cohen.
    [The prepared statement of Mr. Cohen follows:]

    Statement of Jeffrey Cohen, President, Catapult Learning, Inc., 
                             Baltimore, MD

    Thank you Chairman Boehner and Ranking Member Miller for inviting 
me here today. I am honored to be part of this important discussion 
about the Supplemental Educational Services (SES) provisions of the No 
Child Left Behind Act. My name is Jeffrey Cohen and I am the President 
of Catapult Learning. Catapult Learning is a subsidiary of Baltimore-
based Educate, Inc., and a sister company to Sylvan Learning Center, 
the largest network of retail tutoring centers in the country.
    For more than 15 years, Catapult Learning has partnered with 
schools and school districts to provide high quality, research-based 
supplemental education services to at-risk, and largely minority, 
students. Our business is a true public/private partnership with a 
primary purpose of raising academic achievement for at-risk students. 
We customize our broad suite of services, from after-school instruction 
to special education to school-based pediatric therapy, to meet the 
needs of our school district partners. This school year we will provide 
services to more than 100,000 students in more than 150 school 
districts.
    Given Catapult Learning's history of serving at-risk students, we 
were among the first providers to seek state approval as an SES 
provider under NCLB, and we have served thousands of children over the 
last three years. Along the way, we have been part of the national 
dialogue, with parents, students, school administrators and academic 
leaders on how SES works, its effectiveness, and its long-term 
prospects. We believe these programs have the potential to transform 
children's lives, to put them back on track educationally, to get them 
excited about learning, and to instill the confidence that anything is 
possible.
    SES is working for students across the country. Students like 
Graciana Nascimento, a 7th grader at Esek Hopkins School in Providence, 
RI. Graciana went from an F to a B+ in reading on her school report 
card last year after receiving free SES tutoring, tutoring her mother 
Delfina could not afford to pay for directly. Graciana also moved her 
grades up from D's to B's in her other core academic subjects, and 
posted an 8 point jump on her state standardized test score. Both 
Graciana and her mother credit the SES program as the catalyst for her 
improvement. Graciana is just one of hundreds of thousands of Title I 
students nationwide whose lives have been given a new, more promising 
start by this historic effort to level the educational playing field 
for low-income students.
    SES provisions of the No Child Left Behind Act were established, 
with bi-partisan support, to offer extra academic assistance to 
students like Graciana who attend a Title I school that has not made 
adequate yearly progress (AYP) for three consecutive years. The intent 
of the provisions is to provide immediate interim educational help to 
low-income children who attend underachieving schools, while the 
schools work with their LEA and SEA to make whatever changes are 
necessary to increase student achievement levels.
    While some view SES as an experiment in public education, it is 
important to be clear about the hypothesis being tested. At question 
should not be the efficacy of research-based tutoring as an effective 
method for supplementing students' education. Indeed, individualized 
and/or small group instruction has been used effectively for decades to 
help students increase achievement. What is being tested is whether 
providing low-income families with the opportunity to choose the 
tutoring program that best meets the needs of their children will help 
offset the impact of low performing schools.
    As a provider delivering SES since its inception in the 2002-03 
school year, I can tell you that the program, while still in its 
infancy, is showing progress and promise. Although participation in 
many districts is still virtually non-existent, according to the United 
States Department of Education, approximately 218,000 students enrolled 
in NCLB SES programs in the 2003-04 school year, an increase of more 
than 100 percent over 2002-2003. And for the current school year, all 
indicators suggest that the number of students enrolled should show 
similar growth.
    This growth in student participation is evidence that parents and 
students not only find the free tutoring option compelling enough to 
try once, but also derive enough value from their participation to re-
enroll in subsequent years, tell their friends and families, and make 
SES a part of their public school experience. Week in and week out, we 
receive phone calls from parents, grandparents, community 
organizations, schools, and even school districts from around the 
country about the positive impact of our SES program. Despite the daily 
flood of negative press about NCLB, its purpose and its implementation, 
the calls continue and the enrollments climb. My belief is that this 
demand we are seeing for services at the local level transcends the 
politics of NCLB and serves as evidence that SES programs are an 
appropriate and compelling option for low-income families; one that 
will provide for low- income families the same educational benefits 
that similar programs have provided for middle and upper income 
families for decades.
    While there are positive stories and trends to cite, student 
adoption of SES is clearly muted by a wide variety of challenges that 
states, districts, schools, and providers face. For instance, districts 
grapple with issues such as determining student eligibility and 
administering parent communications, managing access to school sites, 
and contracting with providers. States cite as their biggest challenge 
determining whether the services of potential providers are effective 
in raising student achievement. Providers often contend with 
unnecessary obstacles including district opposition to participation in 
SES, lack of information about implementation plans, and LEA regulation 
of state-approved educational programs.
    Over the past three years, we have experienced dozens of examples 
of what appear to be obstructionist action on the part of those charged 
with implementing SES programs at the local level. We have seen parent 
notification letters that are impossible to decipher. We have seen 
multi-part registration processes that seem to challenge or dare 
parents to register, rather than encourage them. We have been 
prohibited from talking to school principals and parents. While we are 
hopeful that these practices will diminish, there is no doubt that such 
practices have prevented thousands of low-income families from 
participating in the free after-school tutoring programs that they are 
entitled to by law. Alternatively, experience is showing that when 
states, districts, and providers collectively embrace SES, the result 
is thriving student participation, diversity of choice for parents, and 
positive outcomes.
    The reluctance we are facing is easy to understand, but difficult 
to accept. SES is groundbreaking for public education because it has 
established a competitive marketplace where competition, innovation, 
investment, successes, and even failures are playing out. And, as in 
any industry, quality is prevailing. Across the country, providers are 
developing reputations among parents and school districts, and these 
reputations are becoming determinants of their success or failure. Most 
importantly, low-income parents are becoming educational consumers for 
the first time in their lives. These parents, who do not have the means 
to move to suburban school districts or pay for private school tuition, 
now have the power to make a purchasing decision that will meaningfully 
impact their children's education. There is every reason to believe 
that these new education consumers will act as all consumers do, 
valuing quality, service and results above all else.
    As with all education reform, change takes time and all involved 
must weather both successes and failures. The potential of SES programs 
is exciting, and the last thing we need is a rush to judgment based on 
anecdotes, scarce data, and the fear of success. If SES programs prove 
unsuccessful, then they should be changed, but it is too early to make 
that determination. And, if we modify this great public/private 
opportunity, let's do it for the right reason, and not simply because 
it poses a threat to the status quo. It was 40 years ago this month 
that the Elementary and Secondary Education Act was signed into law, 
creating the Title I program. Since then, we have spent more than $175 
billion in an effort to close the achievement gap. Regardless of one's 
feelings regarding SES or NCLB, there is certainly consensus that the 
gap is still too large, high school dropout rates are too high, and we 
must accelerate our attempts to address these challenges. Last year it 
is estimated that a little more than 2% of Title I funds were spent to 
support SES programs, a relatively meager investment with the potential 
of a very strong return.
    The most vexing problem surrounding SES implementation is the lack 
of consensus around the evaluation of program effectiveness. We, along 
with all state-approved providers, welcome full accountability for the 
results of SES programs. We believe there are several accountabilities 
inherent in the process of implementing SES programs. For example, we 
are accountable to the school districts with whom we contract to 
provide services. We are similarly accountable to the principals who 
oversee the delivery of our programs in their buildings. Ultimately, we 
are accountable to the parents who select our programs for their 
children.
    Still, we realize that these ``built-in'' accountabilities are not 
enough. Under NCLB, the state has the responsibility to approve 
providers and evaluate their effectiveness. We believe states should 
use a variety of methods for determining effectiveness, including 
standardized test results, survey data and compliance with provider 
applications. While the debate continues with respect to using 
standardized test data as an evaluation tool, we believe states can use 
claims made in provider applications as a way of validating that the 
provider is indeed complying with such claims. To accomplish this goal, 
we have recommended the establishment of a third-party accreditation 
system that can be used to determine whether providers have met the 
objectives set forth in their state applications. Such a neutral system 
can assist states in determining whether to renew a provider's 
application. Moreover, it will ensure that providers deliver on their 
promises of service delivery, of customer satisfaction, and of student 
achievement.
    The research is clear: high quality, research-based tutoring 
programs move the needle dramatically on student achievement. Ill-
conceived, poorly executed programs do not. We need to arm our states 
and districts with the tools to tell the difference between the two so 
we can end the debate about effectiveness and focus collectively on 
raising student achievement.
    Once again Mr. Chairman, thank you for the opportunity to speak 
today. I appreciate your time and would be happy to answer any 
questions at this time.
                                 ______
                                 
    Chairman Boehner. Ms. Swanson.

   STATEMENT OF ELIZABETH SWANSON, DIRECTOR, OFFICE OF AFTER 
           SCHOOL AND COMMUNITY PROGRAMS, CHICAGO, IL

    Ms. Swanson. My name is Elizabeth Swanson, and I am the 
director of after-school and community school programs for the 
Chicago Public Schools. Thank you for the opportunity to speak 
to you today. And I want to thank the committee for recognizing 
the importance of this issue as well as your work to ensure 
that all students receive the high-quality supplemental 
education services that they deserve.
    I want to thank in particular Representatives Danny Davis 
and Judy Biggert for their close attention to this issue and 
continual support for Chicago Public Schools.
    My comments today will focus on the need for accountability 
in the delivery as well as the results of supplemental 
services. Since Mayor Daley took responsibility of the Chicago 
Public School system in 1995, the district has been holding 
schools accountable for improving student performance. CPS has 
closed underperforming schools, dismissed underperforming 
principals to send a clear message that schools must continue 
its progress.
    Now after 10 years of strong leadership and accountability, 
we are seeing the results. CPS students are at all-time highs 
in State assessments, and our improvement has outpaced the 
State's.
    Expanding student learning opportunities, including the 
creation of new schools, and the expansion of after-school 
programs is one of the district's three core strategies to 
becoming the premiere urban school district in this Nation. 
Given CPS's commitment to choice, innovation and quality after-
school programs, SES was seen as an opportunity to support and 
enhance the district's visions for its students and families.
    This school year, CPS attempted to apply its accountability 
system to the private supplemental services program; however, 
we have now been advised by the U.S. Department of Education 
that it is not the district's role to hold these tutoring firms 
accountable. In the current regulatory environment around 
supplemental services, Chicago Public Schools is expected to 
allow outside providers into its schools and pay them at rates 
they unilaterally establish. In addition, we must cede 
evaluation responsibilities to the State. Put plainly, we are 
being required to contract without being able to negotiate 
terms, and that is poor government and business practice.
    In Chicago, this unregulated environment has resulted in 
SES providers charging three to four times the amount of money 
as it takes to offer equivalent CPS after-school programs, and 
they use the same or similar materials, the same teachers and 
same facilities as CPS. In Chicago, SES is a substantial 
industry. We are going to spend about $50 million on SES this 
year, and we expect to next year. We must ensure that this 
funding will provide high-quality services for as many students 
as possible, and we need the proper infrastructure from the 
State and Federal Government to make that happen.
    Under the U.S. Department of Education's current 
administrative guidelines, States approve SES providers and are 
responsible for monitoring their performance. School districts 
are expected to facilitate parental selection of a provider and 
pay for the services. In Illinois, the new administration at 
the Illinois State Board of Education has inherited a system 
where SES providers were granted permission to tutor tens of 
thousands of students based on a cursory review of only a 
handful of pages of documentation.
    CPS has been working closely with the Governor of Illinois 
and his new administration at the Illinois State Board on these 
SES issues. The State recognizes the shortcomings of the 
current SES approval and monitoring system, and they are 
working to improve their oversight.
    Chicago Public Schools, on the other hand, has the 
capacity, the commitment and the obligation to ensure that the 
services provided to our students are of the highest quality. 
This school year we implemented an accountability system that 
begins at the school level. CPS employs an SES lead instructor 
at each SES-eligible school who monitors program implementation 
and quality. With our current accountability system, we have 
been able to adequately monitor SES providers as demonstrated 
by our recent removal of one provider from seven of our 
schools. We took this action after a thorough review of the 
charges compiled by schools and parents, including inadequate 
student materials, exceeding the agreed-upon student/teacher 
ratios, chronic tutor absences and an insufficient number of 
substitute tutors.
    In addition, CPS is currently conducting an evaluation of 
SES. That means all of the components recommended by the 
Department of Education, and it should be completed by 
midsummer. However, according to the U.S. Department of 
Education, CPA will be unable to use that data to hold 
providers accountable or to act on any of the results. So I am 
here today to ask for your help.
    We estimate that approximately 400 schools in Chicago, over 
230,000 students, will be eligible for SES next year. We also 
have been told that we will have upwards of 70 SES providers 
that will be approved to service in our district. Again, SES is 
a substantial industry in Chicago, and there must be a 
comparable accountability system.
    I respectfully ask you to consider the following: No. 1, 
allow local education agencies to contract with SES providers 
as they do with other vendors. CPS carefully negotiates 
contracts in order to attain the highest-quality product or 
service and the highest possible return on the investment. We 
do this with our unions, our building contractors, our office 
supply companies, and SES should be no exception. CPS was able 
to enroll over 80,000 students this school year, more than any 
other district in the Nation. However, the inability to 
negotiate contracts can lead to only 25,000 receiving 
supplemental services next year. With over 200,000 eligible 
students, it seems a travesty to only serve 25,000.
    And No. 2, allow LEAs to evaluate SES providers and act 
upon the results. If a provider does not demonstrate positive 
impact, LEAs should not be obligated to offer that vendor's 
services to Chicago parents. Allow us to provide parents a 
universe of proven high-quality options.
    Chicago Public Schools' commitment to high-quality 
education, and specifically after-school activities, is clear. 
The district has worked hard to craft and attain a broad vision 
for after-school and community school programs, and 
supplemental education services can help us achieve that 
vision, but only if SES is done correctly with the proper 
supports and accountability measures. Please help us; help our 
schools and students ensure that high-quality services indeed 
happen. Thank you.
    [The prepared statement of Ms. Swanson follows:]

 Statement of Elizabeth Swanson, Director, Office of After School and 
                    Community Programs, Chicago, IL

    My name is Elizabeth Swanson and I am the Director of After School 
and Community School Programs for the Chicago Public Schools. I thank 
you for the opportunity to speak to you today about the supplemental 
services provision in No Child Left Behind. I also want to thank you 
for recognizing the importance of this issue--and for your work to 
ensure that all students receive the high-quality supplemental 
educational services that they deserve.
    My comments today will focus on the need for accountability in the 
delivery, as well as the results, of supplemental services. I will 
discuss in detail Chicago Public Schools' efforts to ensure 
accountability for the public dollars spent on tutoring. I will also 
demonstrate that our belief in accountability goes far beyond the realm 
of supplemental services--but extends to all that we do as a district, 
including our programs offered in out-of-school time. As you will see, 
we only wish to hold supplemental service providers to the same 
accountability measures to which we hold ourselves.
CPS Alignment with NCLB
    Chicago Public Schools believes in the spirit of the No Child Left 
Behind Act's three principles:
    1. Accountability for results
    2. Quality options for all students
    3. Highly qualified teachers for every child
    All three principles are consistent with our own key strategies and 
desired system outcomes--however, this testimony will specifically 
focus on the first two.
            Accountability for results
    Since Mayor Daley took responsibility for the Chicago Public School 
system in 1995, the district has been holding schools accountable for 
improving student performance. CPS has closed under-performing schools, 
dismissed under-performing principals and has aggressively used the 
powers of probation to send a clear message that schools must make 
continuous progress.
    Now, after 10 years of strong leadership and accountability, we are 
seeing the results. CPS students are at all-time highs on state 
assessments in most subjects and grades and our improvement has 
outpaced the state's. In addition, CPS is responsible for the reduction 
in the achievement gap in Illinois. Our local assessments tell the same 
story. For the first time ever, better than half of our eighth grade 
students are above the national average in math. And 74% of our schools 
demonstrated gains in the 2003-04 school year.
    Although we still have a long way to go, these results are witness 
to steady gains that come largely from strong accountability systems 
linked to standards-based instruction. Our success is truly remarkable 
for a school system where over 85% of the students are low income. In a 
country where performance has consistently been correlated to family 
income, this is proof positive that poor and minority children can meet 
high standards.
    87Quality options for all students
    Expanding student learning opportunities, including the creation of 
new schools and the expansion of after-school programs, is one of the 
District's three core strategies for becoming the premier urban school 
district in the nation. As a part of this strategy, CPS strongly 
embraces free market innovations and competition. Under the Mayor's 
leadership, the school system is committed to opening 100 new schools 
within the next 5 years that will embody creativity and efficiency. 
These schools will include charter schools, contract schools, small 
schools and performance schools.
    CPS also places a high priority on providing quality after-school 
programs, particularly for underachieving students attending low-
performing schools. Chicago Public Schools established the Office of 
After School and Community School Programs (2001), which provides the 
overall leadership and guidance to ensure that every CPS student has 
access to quality programs beyond the regular school day. The mission 
of our Office is to enable and support schools in offering a variety of 
high-quality programs that support academic instruction and enrich the 
development of the whole child. CPS believes that after-school 
activities have the potential to act as buffers against negative 
student outcomes, including underachievement. For children who face 
academic or behavior-related obstacles to success during the regular 
school day, the after-school hours can be a time to eliminate barriers 
and improve the education of the ``whole child.''
    Our office currently operates seven major after school initiatives 
(including SES), serving approximately 200,000 students (about 46% of 
the student population) in 548 elementary and high schools. This is 
well beyond what comparable large urban areas are providing during the 
out-of-school hours.
    As a part of this commitment to quality programs, CPS provides 
schools with ongoing assistance to create and sustain high-quality 
programming for their students. CPS has also leveraged a number of new 
after-school resources for the schools, which have dramatically 
increased the programs and services offered to students and their 
families. And again, we are seeing the results of our hard work. In 
2003-04, 70% of community schools (schools that offer extensive after-
school programming) demonstrated gains on the reading portion of the 
Iowa Test of Basic Skills. In addition, 76% of our 21st Century 
Community Learning Centers demonstrated gains on the Illinois Standards 
Achievement Test. While test scores alone do not prove success for our 
after-school initiatives, they do signify that our students are 
benefiting from these programs and academic achievement is on the rise.
Supplemental Educational Services (SES)
    Given CPS' commitment to choice, innovation and quality after-
school programs, SES was seen as an opportunity to support and enhance 
the District's vision for its students and families. During the 2004-05 
school year, CPS attempted to apply its accountability system to the 
private supplemental services program. However, we have now been 
advised by the US Department of Education that it is not our role to 
hold these tutoring firms accountable.
    In the current regulatory environment around supplemental services, 
Chicago Public Schools is expected to allow outside providers into its 
schools, let them use a pre-approved curriculum, and pay them at rates 
they unilaterally establish without having any input into the program 
design and cost effectiveness. In addition, we must cede evaluation 
responsibilities to the state. Put plainly, we are being required to 
contract without being able to negotiate terms--and this is simply poor 
government, and business, practice.
    In Chicago, this unregulated environment has resulted in SES 
providers charging three to four times the amount of money as it takes 
to offer equivalent CPS after-school programs--and they use the same 
materials, same teachers, and same facilities as CPS. In Chicago, the 
supplemental educational services market is a substantial industry. CPS 
will devote close to $50 million to supplemental services this school 
year--as well as next year. We must ensure that this funding will 
provide high-quality services for as many students as possible--and we 
need the proper infrastructure and support from the state and federal 
government to make that happen.
    Under the US Department of Education's current administrative 
guidelines, states approve SES providers and are responsible for 
monitoring their performance. School districts are expected to 
facilitate parental involvement in selecting a provider and pay for the 
services out of their Title I set-aside. In Illinois, the new 
administration at the Illinois State Board of Education, has inherited 
a system where SES providers were granted permission to tutor tens of 
thousands of students based on a cursory review of only a handful of 
pages of documentation. As CPS is also a provider of other after-school 
services, we know that the state and federal government typically 
require a rigorous and extensive approval process for state or federal 
funding, as with the 21st Century Community Learning Centers program. 
However, such a process does not currently exist for SES. The 
inadequate SES approval process is further outlined in the written 
materials presented today, which include samples of the proposals that 
were approved, as well as a detailed analysis (completed by the CPS 
research department) of the ``evidence'' that was provided to validate 
their applications. The ``evaluation'' process used by the state to 
determine whether or not providers are effective is also included in 
those materials.
    CPS has been working closely with Governor Blagojevich and his new 
administration at the Illinois State Board of Education on these SES 
issues. The state recognizes the shortcomings of the current SES 
approval and monitoring system and they are working to improve their 
oversight. However, there are many different demands being placed on 
state departments of education and Illinois, like many, is struggling 
to keep up with those demands.
    Chicago Pubic Schools, on the other hand, has the capacity, the 
commitment and the obligation to ensure that the services provided to 
our students are of the highest quality. This school year we 
implemented an accountability system that begins at the school level. 
CPS employs a SES ``Lead Instructor'' at each SES eligible school. This 
individual is responsible for visiting SES classrooms, monitoring the 
implementation of curriculum, verifying compliance with the contract 
(e.g., adequate materials, student/teacher ratio, availability of 
tutors) and verifying student attendance. In addition, schools, parents 
and District administration receive individual tutoring plans and 
student progress reports throughout the program. District officials 
also perform site-visits throughout the year to monitor the overall 
implementation of the program. With our current accountability system, 
we feel that we have been able to adequately monitor SES providers--as 
demonstrated by our recent removal of one provider from seven of our 
schools. We took this action after a thorough review of the charges 
compiled by schools and parents, including inadequate student 
materials, exceeding the agreed upon student/teacher ratios, continual 
tutor absences and an insufficient number of substitute tutors. After 
extensive discussions with the provider in question and their 
documented failure to correct the chronic problems that were 
identified, they were removed as a SES provider in seven of our 
schools.
    The recent flurry of news reports about SES accountability (or lack 
thereof) brings us here today. However, CPS has been thinking about 
evaluation of these tutoring programs from day one. The Department of 
Education recently commissioned a report to advise states on how to 
evaluate supplemental services. CPS is currently conducting an 
evaluation of SES that meets all of the components recommended by the 
Department of Education: evaluation of student performance controlling 
for several variables, attendance, and parent and student satisfaction 
with their selected services. Our evaluation will be completed by mid-
summer. However, according to the US Department of Education, CPS will 
be unable to use that data to hold providers accountable or to act on 
any of the results.
Recommendations
    I am here to ask for your help. The Chicago Public Schools is the 
third largest school district in the country, serving over 430,000 
students in 602 schools. We estimate that approximately 400 schools--
230,000 students--will be eligible for supplemental services next year. 
We have also been told that upwards of 70 SES providers will be 
approved to serve in our District. Again, SES is a substantial industry 
in Chicago and there must be a comparable accountability system.
    I respectfully ask you to consider the following:
    1.  Allow Local Education Agencies (LEAs) to contract with SES 
providers as they do with other vendors. CPS carefully bids contracts 
in order to attain the highest quality product or service and the 
highest possible return on the investment. We do this with our 
bargaining units, our building contractors, our office supplies 
companies--and we evaluate the results of our investments to determine 
whether they are worth continuing. SES should be no exception.
        CPS was able to enroll over 80,000 students this school year--
more than any other district in the nation. However, we were able to do 
that as half of those students were registered with the District's 
program, which costs 3-4 times less than the private programs. CPS is 
no longer able to be a SES provider. That fact, combined with the 
inability to negotiate contracts, could lead to only 25,000 students 
receiving supplemental services next year. With over 200,000 eligible 
students, it seems a travesty to only serve 25,000. By allowing LEAs to 
negotiate contracts, you will ensure that high-quality services are 
offered to as many students as possible.
    2.  Allow LEAs to evaluate SES providers and act upon the results. 
If a provider does not demonstrate positive impact, scores low on 
parent and student satisfaction surveys, experienced chronic 
implementation problems (e.g., lack of materials, tutors, etc), LEAs 
should not be obligated to offer that vendor's services to Chicago 
parents. Currently we must continue to offer all services--regardless 
of performance--until the state removes a provider from the approved 
list. Allow us to provide parents a universe of proven, high quality 
choices.
    Chicago Public Schools' commitment to high-quality education, and 
specifically after-school activities, is clear. The District has worked 
hard to craft and attain a broad vision for after-school and community 
school programs, which includes providing comprehensive programs for 
students in out-of-school time, and incorporates needed programs and 
services for parents and community members. Supplemental Educational 
Services can help us achieve this vision--but only if SES is done 
correctly--with the proper supports and accountability measures. Please 
help us--help our schools and students--ensure that high-quality 
services indeed happen.
    Thank you.
                                 ______
                                 
    Chairman Boehner. I thank all of the witnesses for your 
testimony as we deal with the issue of supplemental services 
and how we can get them to more students, and how we can ensure 
that they are more effective. We do appreciate your testimony, 
because we need to know what is going on in the field.
    Now, Ms. Swanson, if I understood the basic thrust of your 
testimony, it is trust us. And I guess I have to say, given all 
the money that we have shipped to public schools around the 
country, it is hard for me to sit here, looking at what is 
going on in the Chicago Public Schools for the last 30, 40 
years, and want to say I am willing to trust you. It is very 
difficult for me to do, even though I would agree that what has 
happened over the last 10 years in Chicago, you have made 
remarkable progress. But if I did say, all right, Ms. Swanson, 
we will trust the Chicago Public Schools to do a fair job in 
terms of opening this up, would you then follow the law and not 
be a supplemental provider yourself?
    Ms. Swanson. We are following the law. We are no longer a 
supplemental service provider, and we would continue not to be 
a supplemental service provider.
    I have to say, the last 10 years we have shown dramatic 
results. Seventy-four percent of our schools made gains last 
year. We have a low-income population of 85 percent, so it is 
remarkable that we are seeing such gains concerning the 
population we are trying to serve.
    Chairman Boehner. Given that Chicago is a large part of the 
State of Illinois, I have a hard time understanding why the 
State board of education in Illinois can't work closely with 
you in order to achieve the results that you are attempting to 
achieve. Where is the breakdown here?
    Ms. Swanson. The State itself admittedly does not have the 
capacity to monitor those. You know, hearing Louisiana's 
testimony, it is phenomenal what Louisiana is doing. The State 
doesn't do any of that for us in Illinois. Currently CPA has an 
attendance tracking system that we are trying to get the same 
exact results that you are after. What is missing is the 
invoicing component.
    Chairman Boehner. Maybe I could cut a deal right here. 
Would the State of Louisiana be willing to sell to the State of 
Illinois or license your system to the State of Illinois?
    Ms. Swanson. Or just share.
    Chairman Boehner. They did a good job.
    Ms. Swanson. I am not going to let you cut my deal.
    Chairman Boehner. Mr. Cohen, what do you think about the 
suggestions that Ms. Swanson--or the suggestion she is making 
for changes in allowing the LEAs to have greater control over 
what happens?
    Mr. Cohen. Well, I think, as I tried to point out in my 
testimony, that one of the major barriers in implementing SES 
programs has been the complexities, the uncertainties, the 
unknown. I think adding--this would add another layer of 
complexity. Right now you have essentially 50 authorities that 
are supposed to manage the implementation of those programs, 
and if done right, it is a fairly efficient system. As I 
understand Ms. Swanson's idea, you now would be saying you have 
thousands of LEAs.
    Chairman Boehner. All with their rules and regs.
    Mr. Cohen. One of the problems that we face is we tried to 
make sure as many of the per pupil funding dollars goes into 
instruction. That type of rule, I believe, would radically 
increase noninstructional costs because we would find ourselves 
negotiating over and over and over again with multiple LEAs. I 
suspect it would drive providers out of the market.
    Chairman Boehner. I think all of you talked about the 
difficulty in getting eligible children and their families to 
sign up for supplemental services; and then even though you 
sign them up, trying to get them there to the classroom. What 
are the major barriers that you have experienced in terms of 
getting eligible students to sign up for these services? And we 
will start with Ms. Nola-Ganey.
    Ms. Nola-Ganey. I think it is awareness on the part of the 
parents and the families of the availability of the services. I 
think that is a major obstacle. We have tried hard to do 
community awareness, but I don't think you can ever do too 
much. I think that is the main obstacle is awareness.
    Chairman Boehner. Mr. Teasley.
    Mr. Teasley. Probably several obstacles. No. 1 would be 
awareness. I am not a media expert, but they do say you need to 
have 1,200 gross rating points in order to get into the market 
whatever package you are trying to sell. In Indianapolis, Gary 
and Colorado, No Child Left Behind requires the district to 
provide one notice a year. One notice isn't going to be good 
enough. Service providers don't have the list of the students. 
Service providers would probably like to market their program 
directly to the students, and I understand we need privacy, and 
we have privacy issues.
    Perhaps one way we could work with the district since they 
do know who needs the services is to provide the district as 
much information and the funding necessary to mail or phone 
call necessary to reach these families, because these families, 
they may get something in the mail and looks like direct mail, 
and they pass it on or don't even read it. And highly educated 
families who have three or four kids, stuff gets stuck on the 
to-do list or on the pile of mail you need to look at. So even 
low-income families are having the same challenges as high-
income families are with managing the mail that they have. They 
don't know if it is important. So direct access to the families 
would probably be the best solution, keeping in mind the right 
to privacy that each family has.
    Chairman Boehner. Mr. Cohen.
    Mr. Cohen. I echo both those thoughts and would add that I 
think there is an issue of effort. And again, as I tried to 
point out in my testimony, we have seen school districts that 
will provide a provider fair during the middle of the workday 
miles and miles from mass transit, and then not to steal Ms. 
Swanson's thunder, but Chicago on this issue provided multiple 
provider fairs after work, well communicated to the community, 
and provided transportation, and they were a resounding 
success, and they have 80,000 students in their program. 
Certainly it is parent awareness, but how much effort is going 
in to make sure these parents are aware that these programs are 
out there.
    Chairman Boehner. Ms. Swanson.
    Ms. Swanson. I believe the district does have to become a 
huge advocate for this program, and Chicago Public Schools has 
absolutely embraced SES. And we did announcements over the 
summer. We vetted all the things we sent out to parents with 
community groups and groups of parents. There is a 20 percent 
return rate when we throw something in the mail. We did direct 
outreach through churches, the neighborhoods. We held regional 
fairs. We provided transportation. The district can be a huge 
catalyst for getting people registered for this program, and we 
will continue this next year as well.
    Chairman Boehner. I know my time has expired, but I need to 
expound on this point, because school districts are in an 
interesting position. If they reach out and encourage more 
participation, that is more money that comes out of the Title I 
coffers and goes into the SES providers' pockets. And Chicago 
has taken what I would think the morally right approach to say 
these kids need help, let us reach out and let us get as many 
enrolled as we can. We have put school districts in kind of an 
interesting box.
    Ms. Swanson, I think you know what goes on in Chicago and 
elsewhere. Why aren't more schools embracing supplemental 
services for their students, in your opinion? Then I will ask 
Mr. Cohen.
    Ms. Swanson. I don't know. I think it does put--like you 
said, it is an interesting line we are walking. We know we are 
critical to assessing the program. We have a CEO who embraces 
after-school tutoring. It is a personal passion of his. He 
developed this office when he came in in the administration a 
few years ago. An after-school office didn't exist. It is part 
of CPS's mission. But it does go back to the critical component 
of this, but also not able to really necessarily regulate what 
happens once we get folks enrolled and things of that sort. 
Districts are trying to walk the fine line, but a lot of it is 
financial.
    Chairman Boehner. Thank you.
    Mr. Miller.
    Mr. Miller. Thank you, Mr. Chairman. And thank you all for 
your testimony. I think it has all been very constructive and 
very insightful.
    A couple of things in the questions. If I understand, the 
situation in Illinois is that the State really has sort of a 
bare-bones program in terms of quality and monitoring and 
control and accountability, if you will, operation. And I think 
the concern, Mr. Chairman, is, for us, somebody has to take 
responsibility for having a well-administered program. If we 
put $200 million into this program this year, people are 
projecting it could go rather quickly to $2 billion. We can't 
leave that money on a stump. We have to know that somebody is 
watching out after that.
    Louisiana has given us one version of that. Mr. Teasley has 
given us another version that he thinks works in Indiana. And 
in Illinois, we have this big void where the State is not 
participating, which means then the school district has to open 
up to its parents and to its resources, a lot of people that 
may or may not be fly by-night operators, because you really 
don't know what the monitoring is.
    Mr. Miller. Because you really do not know what the 
monitoring is. You do not know how they are doing. You do not 
have real-time data in terms of their effectiveness.
    Now, I would say, well, you have got some big-name 
operators. They have a franchise they want to protect, so maybe 
they are going to do a good job, or you hope they will do a 
good job. But that doesn't even help you here, because at some 
point the parent gets to make a decision about who they are 
going to request provide these services.
    And if somebody--if the State is not going to put in place 
a first-class system--not a burdensome system but a first-class 
system that gives us the kind of data and information so that 
we can start to deal with this in a modern fashion, I mean, we 
are constructing a new system here. We should not construct it 
like the system of the last 50 years. We should construct it 
with all of the benefits of data and real-time information so 
it can be used and it can hold people accountable and we can 
get the results for these students.
    But when the State defaults, and I think I can probably 
throw California partially in that category, then who watches 
out for the interests of the taxpayer dollars, for the child, 
for the parent, and for the school district? Somebody has got 
to step in those shoes. And I think either we are going to have 
to determine what a good system looks like to help some of 
these States get up and running and meet their responsibility 
or we are--well, I do not know what the ``or'' is, because, 
again, somebody has got to be accountable for this money.
    I think Chicago has been caught in an unusual situation, 
and it is not about--at least when I listen to parents, parents 
made it pretty clear in Chicago, in many instances, they wanted 
to have the choice of the current teachers and/or a vendor, if 
you will, an outside person, made that very clear from people 
that I talked to.
    And I just think it goes to the fundamentals of this 
hearing. I mean, we took a major and bold step forward in terms 
of inviting in the non-profit private sector to this system 
because we thought this would be healthy and we thought that 
services and research that have to be done could be effectively 
deployed on behalf of these children. And I hope that turns out 
to be true, but we are not there yet.
    Mr. Teasley, on page 2 of your statement--excuse me, Mr. 
Cohen, on page 2 of your statement, you say that while some see 
SES as an experiment in public education, it is important here 
to clear up about what the hypothesis are being tested. At 
question should not be the efficacy of researched-based 
tutoring as an effective method supplementing students' 
education. Indeed, individualized or small-group instruction 
has been used effectively for decades to help students increase 
achievement. What is being tested here is whether or not 
providing low-income families with the opportunity to choose 
the tutoring program that best meets the needs of their 
children.
    I suspect both are being tested here. Because the problem 
is the parent has got to rely on the fact that this is a 
research-based tutoring that is an effective method of 
delivering these services. We haven't quite crossed that 
threshold where we can look parents in the eye in Washington, 
Indiana, Louisiana and elsewhere and say, here is your 10 
choices, different ways of doing this, but the effectiveness is 
pretty close, and we have confidence in them, make your choices 
where you would like to go.
    Because, right now, at least, just--in coming from within 
the industry suggests--I love it when the others say, oh, that 
other guy is cheating over there; that person is cheating, too. 
Suggests that we are not there where we can assure these 
parents that each of these choices is tied to--and in fact 
Chicago has dismissed and other people have dismissed some 
providers.
    Mr. Cohen. I think the system, though, is built--and I do 
not mean to sort of parse words here, but the system is built 
not to test that first issue. And what I mean by that is every 
provider has to demonstrate a track record of effectiveness and 
educational----
    Mr. Miller. I think that is open to question. That is my 
concern. I don't think all States are really asking that that 
be demonstrated.
    Mr. Cohen. OK.
    Mr. Miller. It should. We have no disagreement.
    Mr. Cohen. Well, I think we have a disagreement there. Our 
experience--and I can only speak for our own experience--is 
that the State applications are fairly rigorous in asking for 
demonstration of alignment to the State curriculum or State 
standards, demonstrate a track record, as I said, of 
effectiveness, which I believe is actually in the law.
    So if, in fact, the State--I think it gets back to not to 
the front end or the back end----
    Chairman Boehner. How many States do you operate in?
    Mr. Cohen. We are approved in 35 States. We are working in 
more than 75 school districts across the country. So, to that 
point, we have seen 35 State applications. Many are the same 
that have been adopted through many States. I think the issue, 
again, is on the back end, which is the verification and 
validation. In other words, are the providers doing what they 
claim they would do in their application?
    I agree with you that there may be resource issues up front 
in determining whether or not what goes into that application 
merits or warrants an approval. But the real issue I think is 
on the back end to say whether or not the provider actually 
accomplished what that provider set out to accomplish in the 
application.
    Mr. Miller. Ms. Nola-Ganey, let me ask you a question. The 
system that you put up in your power point yields an awful lot 
of information and a lot of data. Are you able yet to use that 
to start to delineate differences in terms of effectiveness 
between programs? And, if so, at some point does the State 
envision making judgments that some programs are better than 
others?
    I know we do not want to get into that. But with all of the 
effort you have gone through, I would assume one of things you 
want to learn is, whether it is 14 hours at $100 an hour, 
whether it is 40 hours at $18, you would want to start to be 
able to determine that, to help parents make the right choice 
with the public resources.
    Ms. Nola-Ganey. That is exactly what our evaluation design 
is intended to do, is to look at the effectiveness of each 
provider not just based on what they tell us they are doing but 
what is actually evident based on outside evaluation, outside 
test data.
    Mr. Miller. So, as I understand your testimony, you have 
the standardized test, but you also have other means of 
matching how these children are progressing?
    Ms. Nola-Ganey. That is right. But, also, let me add 
something to that. We also have where we approve providers as 
either fully approved or new and emerging. Because if a 
provider has a record of--has the research-based evidence but 
they do not have a long history of effectiveness, we allow them 
in as a new and emerging provider; and as they are new and 
emerging, they are limited to the number of students they can 
serve, and we monitor them more often, provide them much more 
technical assistance.
    So as part of our research design is also how are we going 
to take those new and emerging providers and move them up to 
fully approved, based on the data that we are finding out.
    Mr. Miller. Thank you very much.
    Chairman Boehner. Mr. Teasley, could you deal with a 
question that Mr. Cohen was dealing with in terms of your 
experience in terms of the State applications and the State 
follow-up in terms of results? Is it any different than Mr. 
Cohen's experience?
    Mr. Teasley. We are not in 35 States. We are in one State, 
in Indiana. We did just fill out our application for Colorado. 
We found the application was rigorous. We had to provide a 
research-based program, effective proven program, et cetera.
    Chairman Boehner. And aligned with State standards.
    Mr. Teasley. Aligned with the State standards.
    In Colorado, it is a little different than Indiana. We went 
through the program last year in Indiana. We just went through 
the program in Colorado and submitted the application literally 
a month ago.
    In addition to submitting the application, they are 
actually doing interviews with the providers. And in addition 
to the provider applying to be a State provider, a State-
approved provider, we are actually having to provide addresses 
of where we are actually going to provide the service, which is 
a little difficult on the provider because you do not know 
which district needs the service. At the time you are doing the 
application, you have a list that is provided by the State, but 
you do not know if that list is going to be true when you start 
providing a service.
    So it is a little bit difficult, kind of a catch-22. Why 
would you go through lining up the locations if you don't know 
where you are going to actually be needed? But, nonetheless, we 
did do that; and we have our interview in 2 weeks with 
Colorado.
    If you do not mind, I want to clarify a little bit on the 
issue of $18 an hour and $100 an hour. Quite frankly, I do not 
care how much you do charge per hour. We really should not get 
in the business of counting seat time. We need to be starting 
to look at academic achievement. So if, indeed, you can measure 
the achievement, and the achievement is terrific, than you can 
have a rubric to where, you know, 10 hours of tutoring for 
$1,400 is worth it, whereas if you do $18 an hour, which we do, 
maybe it is not so good. I am talking about ourselves. OK? So 
why would you want to do that for 80 hours? You don't.
    Mr. Miller. The point of my question is whether or not 
Louisiana would be in a position, over time, where they could 
start to delineate whether they were differences, whether more 
hours made a difference, or fewer hours, or the program, two 
different style programs. It wasn't a question of the 
compensation patterns, just whether or not the data was set up 
to yield the information so they could start making some 
judgments about what, in fact, was effective.
    Mr. Teasley. I would like to comment, by the way, on her 
program. We are a charter school in Indiana, and we have a 
student testing number. I believe every State has that. The 
data for every student in every State is on a State-based data 
collection system. It would make perfect sense to have this 
lined up, the SES program with the State testing number that 
every student has, and then--I do not know if that is what you 
already do?
    Chairman Boehner. That might be too practical.
    Mr. Teasley. That might be too practical. It is already 
created. You wouldn't have to buy it. You have already have the 
system in Illinois.
    Mr. Kline. Mr. Chairman, I want to thank all of the 
witnesses for being here today. Terrific testimony. It is a 
great subject. It is a program that I think all of us on this 
committee want to see succeed, I hope, around the country. 
Fascinating to me to listen to the compelling case that Ms. 
Swanson makes about the very large district in Chicago public 
schools and the need for them to deal directly and then hear 
Mr. Cohen say, yeah, but then we are going to do several 
hundred contract negotiations. It has been very helpful and 
informative to me.
    We have had a couple of questions so far, which I cannot 
remember if it was Mr. Miller or Chairman Boehner who went 
down--started going down the road about obstacles to 
participation; and I was fascinated to hear about public 
service announcements and time on television and radio and mail 
sent that apparently gets thrown away. I have some familiarity 
with that kind of situation.
    At the risk of seeming to be extremely naive, let me just 
explore the possibility of the information being sent home in 
the backpack, and I understand that puts us in a little bit of 
the dilemma that Chairman Boehner was talking about of 
conflicting needs of the districts. But it seems to me that the 
Louisiana data base, which just is fabulously successful and I 
hope you are able to work that negotiation, by the way, does 
not that data base allow you to track the students that are 
eligible and those that are participating and those that are 
not and wouldn't that then allow you, the school district and/
or the State, to follow up with those students who are eligible 
but not participating with another note sent home in the 
backpack or something? Can you address that?
    Ms. Nola-Ganey. We did try to do that. In Orleans, as I 
said, we had streetcar announcements, we sent out flyers, we 
even got the preachers to help us. We have a 1-800 number that 
we have plastered everywhere. Because we wanted to track the 
calls that came in from parents because you cannot force them 
to do it. They have to want to do it.
    So we tracked the number of calls, and we did get an 
increase in the number of calls.
    But when it got down to--I think there is also obstacles 
when it gets down to the school and the district level, if they 
are not being receptive to the parents who are calling--I mean, 
we track the calls, but we also had them, you know, we had to 
refer them to the principals. And so the principals are not 
being receptive. It is just--it is a lot of issues in there.
    Mr. Kline. I concede that there must be a lot of issues.
    Something fundamentally I do not understand about the 
system, when you have the information about the students that 
are eligible and those that are enrolled, you obviously have 
the students who are eligible but not enrolled, and why do not 
you have the mechanism for contacting them directly? I mean, 
why do we need the radio and the television and the preachers 
and whatever other mechanisms? Why can't we reach those 
students and parents directly?
    Ms. Nola-Ganey. I think they are being reached directly. 
They are all being sent home information. If they are in a 
Title 1 eligible school, they are sent home the information to 
their parents. But it is a matter of getting the parents to 
take the next step. It is a struggle. We would certainly 
welcome your recommendations on how we could do that better.
    Mr. Kline. I was looking for your recommendation.
    Ms. Nola-Ganey. We are struggling here.
    Mr. Kline. Have I just fundamentally missed it?
    Ms. Swanson. No. We actually just started with that. We did 
that exact thing. We sent something home in the backpack. The 
report card pickup is April 20th for all of elementary schools. 
We started sending out information regarding SES for next year, 
just saying, you know, please stay tuned. Your children may be 
eligible. You will get more specific information as it goes on. 
And we are going to do it at the end of school year before the 
kids go home.
    That is our initial step is to literally hand children, you 
know, the information to bring home to parents. Then it is a 
follow-up. It is amazing the gap of time that--the summer, that 
people forget to register, et cetera. That is when we really 
start media pushes, just to keep the brain remembering that SES 
is coming. But we do do that.
    Mr. Kline. OK.
    Mr. Teasley. Sometimes we may be forgetting about who we 
are trying to serve here. I do run a charter school; and 
literally--I mean, I am not saying this is every child, but a 
lot of the children we are trying to serve, we are talking 
about mom and dad, they are not home. They are being raised by 
grandma. They are being raised by a guardian. Literally in my 
school, which, you know, the guardian of the student has to 
make the proactive choice to come to my school. Nonetheless, 
they are getting in trouble too.
    A dad was charged with rape 2 weeks ago, a father of one of 
my students charged with rape. Now, he is married, right? He is 
charged with rape. The mother tried to overdose on drugs, tried 
to get her kid to do the same. Now the kid is in child 
protective services.
    You send something home about SES with this kid in their 
backpack, who is going to read it for that little kid? This is 
not----
    Mr. Kline. They do not have the ability to get the note 
signed back from the guardian or parent?
    Mr. Teasley. It is very difficult.
    Mr. Kline. But you can track it. I guess--I see my time has 
expired. But I am just really impressed with the STAR program 
that Louisiana has. It looks to me--I guess I was trying to 
explore another, you know, potential use for the thing. And my 
time has expired. But I highly encourage the two ends of the 
table to come to common ground here, and maybe we need to talk 
to the State of Illinois.
    Thank you, Mr. Chairman.
    Mr. Castle. [Presiding.] Mr. Kildee.
    Mr. Kildee. Before I start my questions, Mr. Teasley, your 
statement about some homes aren't really qualified to make 
decisions for their kids, wouldn't it be better if we had the 
school be able to make, in some instances, the choice of 
sending a child to these tutoring services?
    Mr. Teasley. I think in many cases it would be very helpful 
if the schools would help. I wouldn't mandate the schools, but 
I would think if a school, like in my case, understands there 
is difficulties at home, that there are counseling 
opportunities for the child, and the child can actually work 
with----
    And IPS is actually working with us. They called us 2 weeks 
ago and they said, there is 300 kids who have yet to take SES 
programs; and they want us to provide that service to them over 
the summer. So IPS, Indianapolis Public Schools, is actually 
wanting to work with us and actually help us market our 
program, more so to the two schools in particular, because they 
know where these 300 kids are, and they want to go with us to 
the principal and say, would you market this thing to these 
kids again and again?
    But that is a district that really wants to see this 
happen. There is another district in which we are operating, 
and that is in Gary. We have been operating since January, and 
we haven't been paid a penny yet. That is difficult. Are you in 
Gary? We haven't been paid a penny. Here it is at the end of 
April, and we have encountered all of these payroll costs and 
services that we have rendered, and we haven't been paid a 
penny. Now the District of Gary, I would say, is just not as 
inviting as Indianapolis is.
    Mr. Kildee. Well, I think, in my district, we have a school 
district where a mandate to the school to enroll a student in 
the SES would be very helpful to hundreds and hundreds of 
students. Perhaps if we fully funded Title 1, which would be 
about $23 billion this year rather than the--$22 billion rather 
than the 13, the school would have the resources to--if we are 
going to mandate, we should follow the mandate with the 
dollars.
    Mr. Teasley. Are you suggesting compulsory SES attendance?
    Mr. Kildee. I think when there is a dysfunctional family 
that somehow the school system should be able to at least have 
greater influence over the child in getting them into an SES 
program. But that is my own feeling. I do not fear Federal 
mandates entirely as long as we fund the mandate, and we 
haven't fully funded No Child Left Behind.
    That is the first argument I got in with the President and 
the last argument I got in with the President about fully 
funding. But if we fully funded Title 1, we could do much more 
here.
    Let me read a statement from the New York Times. It says, 
we want as little regulation as possible so the market can be 
as vibrant as possible, Michael Petrelli, an official with the 
Federal Education Department, told tutoring company officials 
at a recent business meeting organized by the education 
industry.
    With that in mind, let me address a question to Ms. 
Swanson. When you say the U.S. Department of Education has 
advised you that it is not your role to hold SES providers 
accountable, do you get a sense that they are finding other 
ways to hold them accountable or that accountability is not 
happening to the extent necessary?
    Ms. Swanson. Perhaps Illinois--it seems to me, Illinois is 
being pointed out as perhaps a unique circumstance, but I do 
not know necessarily that it is. But we do not feel there is a 
lot of accountability right now; and Mr. Petrelli has said that 
numerous times in various articles. When we took the steps and 
now over a 5-month process removed a provider from our schools 
we were told that we should not second-guess the State. That is 
not our role.
    So, no, because we know in Illinois the State has not been 
able to have the capacity to monitor this. So we have tried to 
step in, but we really do not think there is accountability 
measures out there right now that are at least strong enough.
    Mr. Kildee. What was the Department of Education's 
rationale for not letting the Chicago public schools use data 
on student performance to hold providers accountable?
    Ms. Swanson. We would like to use our data or evaluation 
results to at least provide good choices so--not a laundry list 
of 75 vendors that we are not sure we know much about. I would 
go back to the rigor of some State's applications.
    I would encourage you to look at Illinois. I have done a 
lot of funding for after school, 21st Century Learning Centers, 
other Federal grants; and I have turned in, you know, grants 
that are hundreds of pages long for much less money than this. 
So I do not see that happening in SES, in every State there is 
not even a very difficult application.
    Mr. Kildee. What was their rationale for not letting your 
school system to use data, student performance data?
    Ms. Swanson. We can track that data, and we are to give it 
to the State, and then the State should do something. What we 
have been told is that the State won't--you know, I believe 
that is in the guidance, that it is 2 years. They have to have 
2 consecutive years.
    We really do not have good data on last year. So our data 
this year is coming out this summer. And we would like to at 
least if not shorten the list to the real high-quality 
providers or at least indicate the ones who have had great 
success--and, unfortunately, today there was another article in 
Chicago that said the U.S. Department of Education is even 
leery about us putting out that type of information to 
parents--just so they are informed consumers.
    So every time we would like to at least publish results of 
evaluations or data, we are getting pushed back on that as 
well.
    Mr. Kildee. Could some providers do a better job in an 
urban school setting like Flint, Michigan, or Chicago than 
maybe in a suburban or rural area?
    Ms. Swanson. I can only really speak to what I am seeing in 
the urban area. I am not sure of the differences. We are 
definitely seeing differences in our providers currently. I 
think some institutions do have a long history of this type of 
programming and are equipped for the capacity that they are 
seeing in places like New York or LA or Chicago. But I honestly 
do not feel that I can make a good comparison to what is 
happening in the rural districts.
    Mr. Kildee. One final question, Mr. Chairman. Your office 
of after school and community programs, do you also have 
control over the 21st Century Learning Centers in that?
    Ms. Swanson. Yeah.
    Mr. Kildee. Can you integrate that with the SESes in any 
way?
    Ms. Swanson. We do. We actually have been at various after 
school conferences throughout the Nation showing how 21st 
Century and SES can work in partnership in schools. And that--I 
mean, again, you know, CPS has really embraced SES and is 
moving its agenda forward for after school programming.
    But 21st Century money allows you to do very different 
things than SES money. If you can have your children in the 
rigorous reading and math programs of SES and then go into some 
of the family programming and enrichment, art, music, theatre 
that can happen in 21st Century, you end up with a very robust 
after school program; and that is really one of things that CPS 
is trying to do. But we do work with a number of our schools to 
try to get that partnership happening at the school level.
    Mr. Kildee. I commend you personally for what you are 
doing.
    Mr. Castle. I will yield myself 5 minutes.
    Let me just start by saying that I agree with a lot that 
has been said today. My sense is when you write laws like this, 
particularly this particular section which was a couple of 
years out, 2 or 3 years out, sometimes perhaps it is not 
written as carefully, the regulations aren't quite as careful 
as they should be. I am not too sure we shouldn't be making 
some adjustments.
    I think it is a very worthwhile hearing. I mean, I will 
tell you one thing that goes through my mind and that is, why 
don't we make all incentives illegal immediately and just be 
done with it? The idea of giving things out to get contracts 
bothers the heck out of me.
    But let me--just a couple of issues that I have in mind. 
One is, there is a very good article in my--I am from 
Delaware--my local paper, a big headline article, Christina 
After School Pilot Program Will Be Used as Model for the U.S. 
Basically, it is a program from a fledgling, they say, for-
profit group, Options for Education, Vancouver, Washington; and 
our largest school district, the Christina school district, is 
basically using it. And it uses more local services in the area 
and that kind of thing than do some of the other programs that 
are there.
    But what struck me as something, Mr. Teasley, both you and 
Mr. Cohen--well, Mr. Cohen did not allude to it, but I think 
references his sister company here, and that is the cost of 
some of these things, which frankly does disturb me quite a bit 
because of the limitations.
    For example, in this particular school district, they have 
$713 per student. And this gentleman who runs this operation--
schools are getting robbed, said Mike Forzley, CEO of Options 
for Education. Some of these supplemental service providers are 
charging $50, $60, $70 an hour to tutor children, and they are 
not connected with the school. That does not go very far, $713, 
if that is true.
    Then it says that Sylvan Learning Center agrees $713 won't 
get a child far. The Center charges $43 to $48 an hour, and 
most children spend 50 to 60 hours to get to grade level.
    That is 713 by divided by 43 to 48 doesn't get you the 50 
to 60. And the 50 to 60, according to another person who was 
cited here, is probably needed in order to bring a person to 
grade level. So--I mean, garbage in is garbage out. I 
understand that. But my concern is that, you know, when you 
create an economic-type program that is perhaps a program that 
is now in the millions, it is going to be in the billions of 
dollars, a lot of people are rushing in to fill it. That is 
fine. I don't have a problem with good economic competition. 
But if they are rushing in to fill it and they are making a lot 
of money and the job is not being done, and Mr. Cohen has 
already indicated we should be assessing these programs more 
than we are, then I have a problem with that.
    So I do not just take it, in fact, just because a program 
is working at $50 an hour, it is necessarily better than a 
program that is working not quite as well at, say, $10 an hour 
on the basis of the number of hours. I think most of us 
understand in education that repetition, going back constantly, 
is a pretty significant item; and we are limited in what we can 
do. We cannot have open-ended programs. I do not doubt that 
some of the more expensive programs might work well, but I sort 
of--I do not want to accept at face value the statement that 
the dollars are not significant here. I think they are a 
significant part of it.
    Can you both give brief statements on that, please?
    Mr. Cohen. I will start. I think something that we have to 
keep in mind is that we have created a marketplace through this 
law. And I think something that is paramount to remember is, 
and I tried to allude to this in my testimony, is we are 
creating a class of educational consumers that we haven't seen 
before. We are giving a purchasing opportunity to low-income 
parents.
    Mr. Castle. In a way, we are giving it to the districts, 
not just to the low-income parents. They are the ones who are 
going to make the decisions on what continues and what does 
not. The parents are going to take whatever they are fed, in 
part.
    Mr. Cohen. Today across the country there are more than 
1,500 approved providers. So there is a wide variety for 
parents to choose from.
    Mr. Castle. It is not necessarily district by district. It 
is the district that is feeding it to the particular parents.
    Mr. Cohen. But even in many districts--and I don't know, in 
Chicago, there are dozens of providers to choose from among the 
parents. And we would argue as----
    Mr. Castle. The facts are I think there are in some cases 
and there are not in dozens in other cases.
    Mr. Cohen. Agree. But even if there are two or three, the 
point is a marketplace over time should sort out the issue that 
you just raised.
    Mr. Castle. But wouldn't you agree we need the evaluation 
you talked about before? Without the evaluation, I think we 
have a significant problem in terms of determining where the 
worth really is.
    Mr. Cohen. I think that has to be a fundamental premise and 
principle here, that we have to be--that all of the providers I 
think would agree that there needs to be accountability and a 
way to determine whether or not the programs are being 
effective.
    But among--let's say if you assume that you have multiple 
providers that have proven that they are effective and you have 
that system in place, then the marketplace will lead the 
consumers to the most effective programs for the cost.
    Because if one provider is at $10 an hour and another 
provider is at $50 an hour, parents are going to choose the 
best program for their kids. And it likely means that is going 
to be the most effective program with the most hours.
    Mr. Castle. Well, I do not want to argue with you. And my 
time is up. But I do not totally--I mean, this is an argument, 
as opposed to my understanding it and your not understanding 
it, because I am not sure if I am right.
    But I just question how much the parents are going to be 
involved in those decisions. Based on what I know of this 
program, you are doing with lower-income circumstances. It has 
already been pointed out that some of the parents can't even 
make the decision, do not have the ability, we cannot even get 
it to them to make the decisions to get into the program. I 
just wonder if those same parents are just going to accept 
whatever is given to them without any kind of real 
determination of the value of it.
    But I worry even more about the school districts, because 
of just inside power reasons, whatever it may be, for not 
making the decisions either. So I am a little worried about all 
that. I would like to see good outside independent judgment on 
this. But let me go to Mr. Teasley.
    Mr. Teasley. Just two comments. One, of the charging per 
hour, $50, $18, whatever it is, Members of Congress need to 
keep in mind that the cost incurred by the provider is set. 
Whether the student shows up or not, we are paying the teachers 
and the tutors. And that has happened to us. We thought we 
could do it. Math. You have 10 kids. You charge $18 an hour. 
That is $180 in 1 hour. You have got your teacher, your tutor, 
your assistants, et cetera. You got your room, your computers, 
and your supplies all worked out in that $180 per hour.
    Well, guess what? You do not get 10 kids per hour. And if 
you do not get 10 kids, you do not get paid for 10 kids. Maybe 
you get five. Maybe you get two. Maybe you get eight. It is all 
over the map.
    So, quite frankly, while we charge $18 an hour, I think we 
are cutting our feet off by doing that. We are actually talking 
about increasing the rate so that we can cover our losses, so 
to speak. We are a non-profit. We are not a group that goes out 
of business. So we have got to be careful with that.
    What was the other issue you were just talking about at the 
end, because I wanted to comment on that. Parents being led by 
the schools. I think--it is anecdotal, but I believe it is fair 
to say that a number of teachers have suggested to the students 
who need the SES to go with X program. I think that is fair to 
say, that that is going on. Principals are also saying, go with 
this program, not that one. So the parents are being fed a line 
as to which program to go to.
    And I do not know what is happening on the other end. I am 
not making any accusations, but I do know that principals and 
teachers are making recommendations to parents about which 
program they should go to.
    Mr. Castle. And, boy, if they got a computer for doing 
that, that would sure bother me, or got a computer if maybe 
they would do it, that would sure bother me. I am not 
suggesting that has happened, but there has been indications 
that that is a possibility, too.
    But my time is well up here. I just think there is a lot of 
questions about this. I think the evaluations, the assessments, 
really understanding what we are doing is vitally important. I 
mean, basically we up here in this business are here to educate 
these kids better.
    You may be in business, running a non-profit or whatever, 
it may be for other reasons. We have got to understand what the 
heck is going on. I am not comfortable that we really have our 
arms around this; and I think we ought to do it now, right now, 
before it is too late, before it is such a big business that it 
is going to be very hard to take apart again and make it 
completely correct.
    With that, let me yield to Ms. Woolsey for 5 minutes.
    Ms. Woolsey. Thank you.
    I wanted to respond to the chairman's comment to Ms. 
Swanson suggesting that she was saying: Trust us. That is not 
what I heard her say. I heard her say, we actually would like 
more oversight.
    And when you talk about trust us, I am sure we have all 
read the New York Times April 4th article where they suggested 
that there is little oversight of the quality of instruction 
offered by supplemental service providers and also described, 
as Chairman Castle just talked of, providing parents and 
students incentives to participate in the programs. Not 
convincing them about the quality, but offering incentives such 
as computers, gift certificates, et cetera, et cetera.
    Then we have an administration that likes to talk about the 
importance of accountability for Federal funds. They responded 
just recently, regarding the supplemental service programs, 
quote, we want as little regulation as possible so the market 
can be as vibrant as possible.
    So where, I ask you, is the accountability for what could 
become over $2 billion in supplemental services? You cannot 
have accountability in one part of education policy and not in 
the other.
    So, Dr. Nola-Ganey, I have a question for you. In your 
testimony you mentioned that you are providing assistance to 
the programs that aren't measuring up. My question is, these 
are supposed to be the experts. If they are not measuring up, 
why aren't we getting rid of them? Because we are telling our 
schools that are in the greatest need that if they don't 
measure up they are in trouble. So what would make that----
    Ms. Nola-Ganey. Well, first of all, the law says that they 
have 2 years to be on the list, for the State to evaluate them. 
We want our children to have the very best. So if they--for 
example, if they are a new and emerging provider, we do go in 
and help them. We have an advantage, because our State has 
invested heavily in after school programs with other funding. 
So we do have a cadre of employees who are fantastic to be able 
to provide assistance to providers. So, yes, we do go in and 
provide assistance to our providers.
    Ms. Woolsey. Well, thank you. It would be my impression 
that if we are bringing in experts, that they should not 
require a lot of help. Because we should be giving that help to 
the educational institutions in the first place.
    Ms. Swanson, this is a rhetorical question, but I would 
like you to talk about this. The struggling schools, the 
schools that need improvement, aren't they facing the exact 
same problems that the supplemental services programs are 
talking about that they are having problems with? Parents that 
are in great need, kids that do not have books, the whole 
thing. Why is it OK that these programs can say we cannot do it 
because we have got these problems, these are our challenges, 
and we aren't supporting our schools who have the same 
challenges? We are telling those schools, measure up or get out 
of education.
    I know I am being coarse, since I haven't asked you exactly 
what I want to know. Here, I do have a question. If we put the 
same investment into the schools and into the after school 
programs, would we not have the same amount of improvement?
    Ms. Swanson. I would think so. We, specifically in our 
after school programs, do consider it almost an extension of 
the school day. We really align all that we do. Before when we 
were a provider we took the time to align all of our after 
school programs with reading and math initiatives that we have 
seen, all of the scores that I have talked about in my past 
testimony, of what has been happening in the past decade.
    So, yes, absolutely. If we invested this money in the 
regular school day, lengthened the day--Chicago has one of the 
shortest days in the country--we could start seeing these 
results.
    Ms. Woolsey. Thank you.
    Mr. Teasley, you said that these programs should be in the 
classroom first and then second for after school programs and 
the tutoring, in your testimony. My question is, with limited 
funds, where should that be spent first, in the classroom or 
outside of the classroom?
    Mr. Teasley. Well, first of all, I wanted to comment on 
that last question that you asked her. The difference between 
the school and the after school tutoring program is that the 
school is compulsory and the after school tutoring program is 
not. It is choice. So schools are having to deal with these 
challenges, the same challenges that we have with the SES. But 
they have an advantage in that it is compulsory education. 
Children must go to school during the day. They do not have to 
take advantage of the SES program.
    Now in your second question as to where the money should be 
spent----
    Ms. Woolsey. First.
    Mr. Teasley. First. I had the honor of hosting Secretary 
Paige last year, 2 years ago--actually, last year and the year 
before he came to Indianapolis; and he made it very clear that 
NCLB is a floor. It is not a ceiling. And, quite frankly, you 
do not need NCLB to be providing supplemental education 
services right now in any district. Any district that wants to 
contract with Sylvan or us, they can do that with or without 
being a needs improvement school.
    So I actually think that, you know, if they have the money 
for the after school tutoring, and that is I believe 
compulsory, you have to spend a certain percentage of your 
dollars through NCLB on SES programs for certain students that 
qualify. If you have those dollars and you are spending those 
dollars on the after school tutoring program, I do not see why 
a district that isn't in the needs improvement category can't 
look at what, say, what Mr. Cohen is doing with his program, 
and let's institute that now so that we do not get to the point 
of being a needs improvement school. There is nothing that 
stops the school from doing that right now.
    Ms. Woolsey. Well, yes, there is. It is called funding.
    Mr. Teasley. Well, they are either going to do it through 
being compelled to do it, by becoming a needs improvement 
school, or they are going to do it on a voluntary basis.
    Ms. Woolsey. But my question is, shouldn't that money be 
spent in the school first?
    Mr. Teasley. Well, I think the U.S. Government provides, in 
the Title 1 program, the flexibility for school districts to 
choose how they want to spend those dollars specifically on 
reading and math. So the school districts do have that 
flexibility right now.
    Ms. Woolsey. Thank you.
    Chairman Boehner. [Presiding.] The Chair recognizes the 
gentleman from Georgia, Mr. Price.
    Mr. Price. Thank you so much, Mr. Chairman.
    I appreciate also your testimony, and thank you for coming 
this afternoon.
    I am interested in, as Representative Kline said, at the 
risk of being naive, how does what we are doing now differ from 
what we did before the program was instituted? I guess this 
would be for you, Ms. Nola-Ganey and Ms. Swanson. How is what 
we are doing now different, and how do the results differ?
    Ms. Nola-Ganey. From what?
    Mr. Price. Before we instituted the supplemental, the SES.
    Ms. Nola-Ganey. How does it differ? Well, before schools 
did not have to provide. Schools in need of----
    Mr. Price. What did you do with these students?
    Ms. Nola-Ganey. Well, a lot of our schools in Louisiana 
have remediation programs. We had other extra help type 
programs. But it is on a district by district level.
    Mr. Price. And how are the results different now compared 
to what--the results you were getting with those students 
different now?
    Ms. Nola-Ganey. I do not think that we have the answer to 
that question yet. We will, though, at the end of this school 
year, to see if, in fact, these programs have, in fact, made a 
difference.
    Mr. Price. Ms. Swanson.
    Ms. Swanson. Before SES, either--we had a commitment to 
after school programs, and we were running our own district 
level program. We compared those programs to the SES programs 
of last year. There is no statistical difference between them.
    I do not think--there is not a lot new happening except 
that, obviously, there is a new, you know, cordon of vendors 
coming in and helping us do that in our after school time.
    We basically, like I said, did similar things, reading and 
math instruction. It wasn't mandated. It was by choice. Our 
after school programs have an 85 percent attendance rate. We 
are doing good things in after school.
    Mr. Price. So I understand you are using $50 million 
annually. Are you getting anything for that $50 million?
    Ms. Swanson. We do not know yet. You know, it is helping us 
perhaps reach more students. Before SES, we were reaching close 
to 200,000. This year, we will have a good gauge if that money 
is reaching even more students, which we obviously think it 
will be. But, other than that, no, we haven't seen the results.
    Mr. Price. But you think you are reaching more students. Is 
that accurate?
    Ms. Swanson. We hope. We do not have that finalized. We 
will at the end of the school year.
    Mr. Price. Mr. Cohen, I understand your--Catapult is in 35 
States or thereabouts?
    Mr. Cohen. Yes. We are approved in 35 states.
    Mr. Price. What percent of your revenue comes from State or 
taxpayer dollars and what percent from private individuals?
    Mr. Cohen. Our Catapult Learning business actually predates 
No Child Left Behind. All of our revenue comes from public 
funds. We are--the premise of the company is a public-private 
partnership. So we only work with school districts. And, 
actually, Mr. Teasley had alluded to this. We have worked with 
Chicago for years prior to NCLB. We have worked with districts 
in Louisiana for years----
    Mr. Price. But in my area in Georgia, if somebody wanted to 
take a Sylvan learning course, they could----
    Mr. Cohen. Different company.
    For example, we worked for years in Atlanta public schools 
where we sat down with the schools and decided which students 
in which schools needed the greatest help and designed a 
program exactly as Mr. Teasley was suggesting that would be 
in--now in a No Child Left Behind world would essentially be a 
preventive program to look at those students in the 
disaggregate subgroups, identify which are likely to push the 
school into an AYP challenge, and design a program to try to 
prevent that.
    Mr. Price. I can't remember whether it was you, Mr. 
Teasley, or Mr. Cohen. You said that we have created an 
industry.
    Mr. Cohen. That was probably me.
    Mr. Price. And I would--no one can argue with our goal of 
providing services to students in need. In view of the fact 
that we have created an industry, is that the best way to reach 
that goal? I guess this is for everybody.
    Mr. Cohen. I guess I will take a stab first.
    I think the issue is which goal you are trying to achieve. 
Our understanding of the supplemental services provisions is 
that they are supposed to be immediate and in-term in nature.
    In other words, we have determined that something is not 
working right in a school. But we do not want to forsake the 
students in that school. So we want to give them something 
extraordinary, something extra. The reason I use the term 
``industry'' is simply because we have created this 
marketplace. It is new. I think potentially it is a very 
vibrant marketplace, where we now go to those parents in that 
school and say you get to make a choice. These are parents that 
have never had the opportunity to make that choice before.
    Mr. Price. My time is short. I would be interested in the 
comments of the other panel members about it. Is this the best 
way to reach that goal of providing those services for students 
in need?
    Mr. Teasley. My quick response is, it is a good way, if not 
a best way. We have a good 50 additional service providers in 
the State of Indiana right now as a result of No Child Left 
Behind. They did not exist before the law was passed. So now 
you have got 50 additional service providers.
    And I think it is important from an educational perspective 
that we recognize that students learn--have multiple ways of 
learning. Howard Gardner suggests that there are seven ways 
that a child learns, whether it is musically, environmentally 
or otherwise.
    Mr. Price. That was known before No Child Left Behind.
    Mr. Teasley. Fine. But we have traditionally--and I hate to 
use a blanket statement--one system. And we need to. And that 
is why charter schools are growing across the country. We now 
have over 3,500 different choices from the system, the one 
system.
    The supplemental service providers, there is 50 different 
ones in Indiana alone. They do it differently. So I think it is 
a good thing.
    Mr. Price. If I can get a quick answer.
    Ms. Swanson. CPS is ultimately committed to highly 
educating kids. We also welcome choice. We welcome, you know, 
innovation. We welcome charter schools and contract schools. We 
have doing that for some years now. But, the bottom line, we do 
not know if SES is going to do it.
    Mr. Price. Thank you, Mr. Chairman.
    Chairman Boehner. The Chair recognizes the gentlewoman from 
Minnesota.
    Ms. Woolsey. Mr. Chairman, excuse me. Could I ask unanimous 
consent to enter my opening statement into the record?
    Chairman Boehner. Without objection.
    [The prepared statement of Ms. Woolsey follows:]

 Statement of Hon. Lynn C. Woolsey, a Representative in Congress from 
                        the State of California

    Thank you, Mr. Chairman, for holding this hearing.
    I am pleased that you share the concerns that our Ranking Member, 
Mr. Miller, I, and others expressed two weeks ago when we requested a 
hearing on supplemental services.
    As we get closer to reauthorization of No Child Left Behind, the 
first thing we must understand is how it is being implemented and the 
impact that is having on our children.
    And, when it comes to implementation of supplemental services, we 
have some serious concerns.
    An April 4 New York Times article, which I'm sure we all read, 
suggested that there is little oversight of the quality of instruction 
offered by supplemental service providers.
    The article also described providers inducing parents and students 
to participate in their programs not by convincing them of their 
quality, but by offering incentives such as computers and gift 
certificates.
    Despite all this, Bush Administration officials, who like to talk 
about the importance of accountability for federal funds, have 
responded that ``[w]e want as little regulation as possible so the 
market can be as vibrant as possible.''
    If a vibrant market means not knowing whether programs are helping 
our children learn and bribing parents and children to make educational 
decisions, I think more oversight is called for.
    It is important to remember that this is not about whether one or 
another specific program is doing a good job today, but about creating 
a system to ensure that every program is accountable for doing a good 
job for our children.
    It also is important to remember that when, according to a recent 
survey, only 27 percent of states said there was sufficient NCLB 
funding to enable them to monitor the quality of supplemental service 
providers, this also is about this Administration's and this Congress' 
gross underfunding of NCLB.
    For fiscal year 2006, the gap between what the President promised 
our children and their schools and what he wants to provide them is $12 
billion.
    That simply is unacceptable.
    All of which is why today's hearing is so important.
    Again, Mr. Chairman, I thank you for holding this hearing and look 
forward to listening to our panel.
                                 ______
                                 
    Chairman Boehner. Ms. McCollum.
    Ms. McCollum. Thank you.
    I did have an opportunity to read your testimony. As you 
know, I haven't been sitting here. I have been across the hall 
where 1 million children just in Africa die every year under 
the age of 5 of malaria. So, unfortunately, I did not get to 
hear everything, but my staff has kept me apprised about what 
is going on. So I have a couple of questions.
    I think one of the things that came out loud and clear when 
I was teaching, as a parent, and from some of the testimony 
here, lack of parent involvement leads to lack of a child's 
often ability to get ahead, overcome these struggles and those 
challenges. Because if it is not important to mom and dad, why 
should it be important to me?
    To that point, an issue of transportation, getting to the 
supplemental services. Does that then become an additional 
burden? And I do say burden, because many of our school 
districts right now, as you know, are facing cutbacks in their 
dollars. We are expecting more for them, we are giving them 
less. So the issue of transportation and parental involvement 
and how that is tracked would be interesting to me.
    In charter schools, you often have the ability, and I know 
in Minnesota, to limit class size in a charter school, where a 
public school if, you know, 50 more kids show up opening day, 
50 more, you find room for them.
    So I am curious as to know what are the class size averages 
for some of these additional learning services that are being 
provided. Are some done in small group settings? Is this all 
one on one? When you go through and evaluate, are you paying 
the same for one on one tutoring as you would for a group of 
children that are being tutored? Is there a pay scale 
difference whether I have a highly qualified teacher doing the 
tutoring versus a paraprofessional versus a student teacher? 
And all of them can be very effective and used in different 
ways.
    But I am just wondering, if one set of dollars is going out 
and I am paying $18 per child per session, it doesn't make any 
difference if it is one on one with a highly qualified teacher, 
one on one with a student teacher, or if it is , you know, six 
or eight in a group. Because these dollars are hard--very, very 
hard to come by. Because we found one of the most determining 
factors outside of parental involvement and having a highly 
qualified teacher was the student to teacher ratio.
    Sometimes we haven't done a very good job in our public 
schools funding those schools, providing the infrastructure to 
have that kind of ratio. So I would be interested in hearing 
how you are handling the ratio and monitoring it as well as the 
transportation.
    Ms. Nola-Ganey. Well, I will try to answer a couple of 
those questions.
    First of all, the transportation issue. We have a bonus in 
our scoring rubric as we scored the providers' applications. If 
they agree to provide the services at the school, they will get 
extra points, because it is a burden for the school districts 
to transport the children as well as it is a burden on the 
parents.
    Also, it depends on, as far as the size of the instruction, 
the one on one versus small group. It depends on the model that 
is being proposed in the application. The dollars that we pay 
range from $18 an hour to $32 an hour. So it depends on the 
model that is being proposed as to whether we, you know, 
whether we approve or not. We do not have a feel yet, and we 
hope to have the feel for whether it is more--one way is more 
effective than the other as far as the numbers of student-
teacher ratio.
    Mr. Teasley. In our program, we do not provide 
transportation in Indianapolis. We do provide it in Gary. We 
are working from three churches in Gary, and they provide the 
transportation from the school to the church facility. And we 
also have wrap-around services there, meaning we have a 
nonteacher who actually calls the parents if the students do 
not show up, finds out what is going on.
    Then we have a certified teacher for every 10 students and 
an aide, usually a college student, assisting in that 10. So it 
is a one-to-five ratio, if you look at it in raw numbers like 
that.
    Our program--actually, we have computers for every child. 
So every child will be sitting down using a software program 
that focused on math and reading, and actually we provide a 
pre-test and a post-test to the districts so that they can 
understand what was accomplished in the time and in how much 
time.
    Since our program--while I appreciate what Louisiana has 
done on a Statewide basis, we have done that in our own 
program; and we can connect that up and show it to the district 
just like that. We can tell you how many hours the child was on 
X State standard, and whether they mastered it or not. And if 
they--you know, and how many of the standards they mastered.
    So while it may seem like we have got a one-to-five ratio, 
quite frankly, we try to get it down to one-to-one, because we 
have students on computers doing the individualized lesson plan 
that has been focused for their attention, and then the student 
teacher and/or the teacher is working individually with a child 
on their specific needs, whether it is reading or math. That is 
what we do.
    Mr. Cohen. I will try to address a couple of the points 
that you raised.
    On transportation, we agree it is a burden, and our 
preference is to work in the schools in partnership with the 
schools, the principals, the classroom teachers, for the most 
part, while--we are providing SES programs in more than 500 
schools across the country. If you visited any of our programs, 
you would find the vast majority of the teachers are teaching 
in a six-or-eight-to-one student-teacher ratio. And those 
teachers are teachers from that school, typically classroom 
teachers, because we believe that there has to be a connection 
between what is happening in the classroom and what is 
happening after school.
    We want there to be recognizable continuity. The students 
are familiar with the teachers. The teachers are familiar with 
the curriculum. So we find, for our program, that works best.
    In terms of the parent outreach issue that you raised, 
parent involvement is one of the fundamental tenets of all of 
our programs, not only of our SES programs. We have talked 
about it. We have talked about it several times during this 
conversation. But these parents are as equipped as any parents 
to make good determinations and choices for their children. 
They just need to get involved, and these programs actually 
have the opportunity to generate that involvement. We take it 
as our responsibility to reach out to them. We do it regularly. 
We have--whether we are hosting dinners or calling them or 
sending backpack messages or all of the above, we take that 
very seriously, trying to communicate with the parents. And 
when you see that communication happen regularly, you are 
seeing a parent get more involved in their child's education.
    Ms. Swanson. Regarding cost, there is not a lot of 
difference in the Illinois process right now. Looking at, you 
know, how many hours of service the tutors--the tutor-student 
ratios, et al, we are finding--actually, that is in some of our 
supporting materials. We did provide that to the committee--to 
say that, really, on the application, that sort of a per 
student allocation dollar sign with a line, and it is filled 
out. There is not a lot of background. So we are finding people 
with a wide range in programs all coming close to that State 
cap.
    That is one of the things that we are advocating for a 
little more oversight on, particularly with limited dollars, 
like you said. These do not reach to all of our eligible kids. 
So we want to get them to as many as possible. Someone needs to 
be looking at that.
    Ms. Swanson. Regarding transportation, the district has 
allowed and always in the last few years under the current 
administration has really invited community agencies into the 
schools. We have the Boys and Girls Club. We have the YMCA 
serving in our schools. We want our schools to function as 
centers of the community.
    We have opened with all of our SES providers and allowed 
them in the buildings, knowing that particularly our parent 
population isn't showing up at the school with the mini van and 
taking all the kids to various programs throughout the city. 
They are working parents, and they need to have their children 
safe. So we have opened our buildings to try to avoid the 
transportation obstacle.
    Chairman Boehner. Chairman recognizes the gentlelady--the 
Chair recognizes the gentleman from Nebraska, Mr. Osborne.
    Mr. Osborne. I am glad you caught that, Mr. Chairman. Thank 
you.
    As you can tell, I have been in and out of here, so you are 
always at risk of asking a really dumb question, but I just 
wanted to get up to speed on a couple of issues.
    First of all, is it entirely the parents who decide who is 
going to be tutored? There is not much discretion left to the 
school as to who receives the supplemental program?
    Ms. Nola-Ganey. I think the school probably advises the 
parent, yes, but it is ultimately the parents' decision.
    Mr. Osborne. I am really interested in evaluation of these 
programs, what works, what doesn't work. And who does that? 
Does the school? Does the provider? And how do you determine 
cost effectiveness? I have heard widely a vague set of numbers. 
Is there any good way that you are getting at that?
    Ms. Nola-Ganey. I will try to answer that.
    The law requires the State to monitor and evaluate. Also, 
the district is required to monitor the provider, the services 
of the provider.
    In Louisiana, we have a data tracking system where we hope 
to--we have a formal evaluation that is going to be conducted 
this year, and we hope to be able to track students through our 
student information system in our State testing program to see 
if, in fact, the students are making progress. It is very 
difficult to be able to say that it is just SES services that 
are affecting the results of the student, because there are 
other interventions that are going on with the student. So what 
we are trying to do is take it down to the classroom level and 
run data on the students who are in the same class who are 
taking SES, taking advantage of the SES services and those in 
the same class who are not taking advantage of the SES and see 
if there is a difference. Those are the types of evaluations we 
are trying to conduct in Louisiana.
    Mr. Osborne. Seems like you would have to control for 
populations. In other words, if most of the kids that you are 
providing the services are in Title I, if 50 percent of them 
are from fatherless homes, there is all that data. It seems 
that accurate follow-up studies require that.
    A couple of other questions. Who determines the 
qualification of the tutors? I mean, you are talking about some 
pretty fancy numbers here. Is it possible for somebody who has 
a high school diploma to become a tutor and make $30an hour?
    Ms. Nola-Ganey. The law specifically states that we cannot 
require that the providers be certified classroom teachers. But 
we do require quality staff, and we have that in our 
application.
    Mr. Osborne. How do you determine quality? Is there an 
educational level of attainment? Do they have to pass a test? 
Do they have to show that they have any expertise in teaching 
or communicating?
    Ms. Nola-Ganey. We do ask in our application that the 
qualifications of the tutors be given, and we assess that in 
our scoring rubric. We require that they have a model that the 
services that they are providing are in fact research based and 
have evidence of effectiveness.
    Mr. Osborne. I have two more quick questions, and I hope I 
can get them in.
    Somebody mentioned that some of these kids have a lot of 
baggage from home and, you know, away from the school; and 
mentoring does do a good job of addressing some of those 
issues. Do you see any correlation? Is there any combination of 
programs where a kid may have a mentor plus a tutor? Is there 
any attempts to address some of those dysfunctions that 
handicap a child from being able to learn?
    Mr. Teasley. I can only comment. We have a counselor and 
all of our teachers--quite frankly, it may sound silly to say 
this. Not only do we want to have certified teachers but we 
look for people with big hearts. Our teachers are literally 
mentors to a lot of our kids. If you ask the kids what they 
like most about our school, they said the teachers know their 
name and the principal knows their name. You ask them what they 
hate most about our school is that the teachers and the 
principal knows their name. It works both ways. So we are very 
much involved with all of the children, not only the ones who 
we serve during the day at our school but also the after school 
tutoring program.
    Mr. Osborne. Can I ask one more question? It seems like 
there is probably a very wide variety of programs being 
offered. Do you see any necessity for some standardization? A 
lot of dollars are being thrown at this, but do you think it 
would be wise to see what seems to be working and what isn't 
working and at least some general guidelines that people would 
have to fall within--looks like kind of a wide-open field right 
now?
    Mr. Cohen. I will try to respond to that.
    The reason it seems like it is a wide-open field, as we 
discussed a bit earlier, is I don't think there has been 
consensus on how to evaluate what is taking place. But I think 
the idea of a wide-open field, once providers have been 
approved, is a good thing. So the onus in the law is on the 
State to approve providers that can show that their program is 
going to be effective. They can demonstrate their research 
bases, can discuss their methodology and can verify that that 
should be educationally effective.
    We want a broad variety of those types of providers in the 
marketplace. But you have to bolt on to the end of that 
evaluation to make sure that, while you do have an open playing 
field, you are comfortable that the open playing field--there 
is a choice among effective providers.
    Mr. Osborne. Thank you, Mr. Chairman.
    Chairman Boehner. If my colleagues would indulge me for a 
second, I would remind everyone that this entire segment of the 
education industry is but 3 years old. While there were 
certainly after school programs and supplemental programs in 
the marketplace, the requirement that schools in need of 
improvement for more than 2 years allow their students to have 
the supplemental services, has spawned a great deal of 
interest; and I think the reason we are holding this hearing 
today is to kind of take note of where are we, what is 
happening in the marketplace, what is happening in the States 
to try to kind of keep an eye on this as it develops.
    For most States who didn't have accountability systems in 
place when no No Child Left Behind was signed into law, when we 
get into this fall we are going to see a larger number of 
students, quite frankly, qualify for supplemental services, 
most likely. So it would be a lot more Title I money going into 
these programs. So I think we are learning a lot, and I am glad 
we are having the hearing.
    The Chair recognizes Mr. Tierney.
    Mr. Tierney. Thank you, Mr. Chairman.
    I apologize to the witnesses for being late. I think you 
know the schedule doesn't allow us to be here all the time. I 
thank you for your testimony which was in writing.
    Ms. Swanson, I thought I might ask you a couple of 
questions, because I was interested in the materials you 
provided us. In particular, all your Supplemental Educational 
Services that you provide--and you may have already testified 
on this basis--but how is it that you select which providers of 
that service are qualified in terms of the requirement that 
they have done this and been successful and have a record of 
success in the past?
    Ms. Swanson. We don't as a district. It is basically the 
State puts out an approved list of vendors, and we are to 
contract with those vendors as parents choose them.
    Mr. Tierney. You have no say in that at all as a local 
district. So if you question somebody that the State has on 
that list if you are not satisfied, is there any recourse for 
you?
    Ms. Swanson. Not yet. Notably, one provider that we have 
questioned brought that to the State. The guidelines state, 
even with that information, they must remain on the approved 
list for 2 consecutive years; and they have only been on the 
list once. We will have to offer that choice to parents again 
next year.
    Mr. Tierney. You must put that choice out to them even 
though you have some serious reservations?
    Ms. Swanson. Correct.
    Mr. Tierney. Is the State monitoring their performance or 
is the school system monitoring their performance?
    Ms. Swanson. We are. And, again, we have been advised that 
it shouldn't be our role. Obviously, we need to look at it, but 
it is the State's role to really monitor and evaluate and judge 
the effectiveness. That hasn't been happening in Illinois, so 
the local school district has stepped up into that position.
    Mr. Tierney. Do you know whether or not the State of 
Illinois has any system set up to allow that to happen?
    Ms. Swanson. They are working to do that. They have spoken 
briefly with Louisiana to look at their Web-based monitoring 
system. CPS is currently contracting and designing a similar 
Web-based system. Perhaps the State could end up using that 
one. But, right now, we are going to keep moving forward in 
trying to see what accountability measures we can add to this.
    Mr. Tierney. There was some mention of some of the for-
profits that are providing these services actually hiring 
Chicago teachers, teachers from the same system. Are these 
teachers in the same system that were found not be performing?
    Ms. Swanson. Correct.
    Mr. Tierney. What is your district's opinion of that?
    Ms. Swanson. I think there is an understanding there is a 
new cadre of people coming in after school and tutoring, and 
that is indeed not happening. Our largest provider, admittedly 
90 percent of their staff are CPS teachers. Effectively, they 
are hiring our teachers and using our schools with very similar 
materials to what we are using in school.
    Mr. Tierney. Is there a pay differential for what they are 
getting paid for at the school as opposed to what they get paid 
during school?
    Ms. Swanson. If they are working for the school district, 
we are bound by union contract to pay them their hourly rate. 
If they are working for a private company, they can set the 
salary. Most of the private providers raise it to the rate, the 
regular rate, simply knowing that that is what teachers will 
work for. They have been pretty much equivalent.
    Mr. Tierney. It has been too early to evaluate the 
performance of those individuals?
    Ms. Swanson. Yes.
    Mr. Tierney. Let me ask you about the tuition-based after 
school program. We have a lot of after school programs, 
unfortunately, with long waiting lists because some of the 
funding has been cut back on that, but there has been 
tremendous success in my district. How are you running your 
tuition-based program? How do you charge and who gets qualified 
to participate?
    Ms. Swanson. We actually piloted that program in 10 schools 
this past year. It really came from parents. Parents approached 
the school district and--typically our middle-class communities 
and said we can afford to pay some fees for after school. We 
have a strong tuition-based prepaid program and other things, 
and we modeled it off of that. There is a sliding fee scale for 
parents, depending on what they can pay for the program. It is 
2 to 6 p.m., 5 days a week. Some do Saturday programming and 
summer programming as well. We have one school that does 
tuition-based program throughout the entire summer. So parents 
can pay whatever fee that they can pay, and there are discounts 
for siblings and whatever. I can provide more information.
    Mr. Tierney. Are you running this right across the district 
or only in schools that are upper income that can afford the 
tuition?
    Ms. Swanson. We allowed any school in the district to apply 
to become a part of the program, and there are 10 schools that 
parents--that very much wanted the program to be implemented. 
We are going to expand to another 10, hopefully, each year.
    Mr. Tierney. Does it appear to you that they are some of 
the wealthier communities?
    Ms. Swanson. More of middle-class neighborhoods, 
absolutely.
    Mr. Tierney. Is there any money other than the tuition 
money paid for these programs or where does that come from?
    Ms. Swanson. The idea is to make itself sustaining. We give 
a seed grant from my office of $50,000 to help hire a part-time 
coordinator.
    Mr. Tierney. Where did you get that money?
    Ms. Swanson. Local tax dollars. The idea would be with the 
revenue generated it becomes self-sustaining at the school so 
it would be no longer relying on Title I or district funds.
    Mr. Tierney. Did you have similar programs under the 21st 
century program for nonprofits and others who provided the 
after school programs? Do you have them or have you had them in 
the past?
    Ms. Swanson. Absolutely.
    Mr. Tierney. Do you find that to be successful?
    Ms. Swanson. Absolutely. Last year, 76 percent of our 
community schools--we call them extensive parent family 
engagement--showed increased test scores as well as our 21st 
century sites showed increased test scores on both assessments.
    Mr. Tierney. How are you doing in capacity?
    Ms. Swanson. All of the money we leveraged gets to about 
200,000 kids, about 46 percent of our population. We have a 
long way to go.
    Mr. Tierney. Thank you.
    Thank you Mr. Chairman.
    Mrs. Biggert. [Presiding.] Thank you.
    I would yield myself 5 minutes; and I, too, apologize. I 
was on the House floor.
    Ms. Swanson, I am glad you are here to represent the 
Chicago public schools. I have a list from the SES that the 
district of Chicago--that you are currently serving 83,357 
students out of 200,000 that are eligible?
    Ms. Swanson. Yes.
    Mrs. Biggert. Los Angeles is serving 32,000 students out of 
230,000 that are eligible, and New York is serving 60,000 out 
of 240,000 eligible. I guess my question is, what is happening 
to these students who are eligible and not receiving these 
services?
    Ms. Swanson. Specifically in Chicago, we are hoping to get 
them first into other after school programs if possible. We 
were able to only stretch the money that far to 80,000 
students.
    Mrs. Biggert. Well, it seems a shame for all of these 
schools that are in need, obviously. But your $53 million and 
Los Angeles $50 million and New York is $96 million. So, 
obviously, these are very important programs that our students 
aren't getting.
    It was my understanding that in negotiations with the 
Department of Education that you had to say that you would not 
use summer school, is that correct? In other words, you were 
going to use the money for the providers in the after school 
program, but then you would need to have different funds for 
summer school than you would have seen as a grant?
    Ms. Swanson. Yes. We had offered as well as possible to 
extend SES into the summer as well, and we have been advised 
that we can't do that either.
    Mrs. Biggert. You can't do summer programs?
    Ms. Swanson. We have to do it through local taxpayer 
dollars.
    Mrs. Biggert. Is SES to provide summer school for school 
districts?
    Ms. Swanson. That is out of school time. That would include 
summer school. But we are being advised that that can't happen.
    Mrs. Biggert. Do you find that if students don't keep up in 
the summer, they fall back?
    Ms. Swanson. Absolutely. In fact, that is the judge of 
whether students advance in certain grades as well.
    Mrs. Biggert. You might even have more of it by the time 
you come back in the fall.
    Ms. Swanson. Correct.
    Mrs. Biggert. Any of you others have that problem? Are you 
funding for summer school as well?
    Ms. Nola-Ganey. We have a rich array of after school and 
summer school programs funded by our legislature.
    Mrs. Biggert. By the State?
    Ms. Nola-Ganey. Right. And we have Federal TANF dollar 
funds.
    Mrs. Biggert. So many times when I go back to my district I 
hear from schools and they say, we can't do foreign language, 
we can't do enrichment programs, we can't do gifted because we 
are teaching to the test. How closely is the academic 
curriculum or the tutoring program aligned with the curriculum 
to the schools or the teachers?
    Maybe I start with you?
    Ms. Nola-Ganey. We do require that there is an alignment, 
and the provider has to show a very strong alignment with the 
school district. We have grade level equivalence and State 
standards. They have to also show that--do they teach to the 
test? Well, I think that if they teach to the standards, they 
are, in fact, teaching to the test.
    Mrs. Biggert. Sometime it is negative when they say 
teaching to the test. And yet, if they are learning the 
material----
    Ms. Nola-Ganey. Exactly.
    Here is an observation. Our attendance rate drops after the 
State tests are administered. So maybe that is just an 
observation.
    Mrs. Biggert. Mr. Teasley?
    Mr. Teasley. We don't teach to the district's curriculum. 
We teach our curriculum which is aligned with the State 
standards, and we are focused on math and reading. That is all 
SES is supposed to be focusing on. So that is what we do.
    Mr. Cohen. Similar answer. We teach the skill; and, as in 
Louisiana and every other State, we show how the skills we 
teach to are aligned to the State education standards. And if, 
indeed, those State education standards are aligned to the 
State test, then you have got a match and hopefully the skill 
attainment that our students receive will be evidenced on the 
State test.
    Mrs. Biggert. Do you think you have had to give up other 
curriculum that you would like, such as the gifted program or--
--
    Mr. Cohen. We are a provider, so--we are actually a 
provider, so we focus more on academic skills.
    Mrs. Biggert. Ms. Swanson.
    Ms. Swanson. When we were an SES provider, we were totally 
aligned with not only our State but our own city standards and 
specifically our new math and reading initiatives. We were 
trying to align what was happening during the day with the out-
of-school time as well.
    Mrs. Biggert. My time has expired.
    The gentleman from Illinois, Mr. Davis.
    Mr. Davis of Illinois. Thank you very much, Madam Chairman; 
and I am delighted I had the chance to get back.
    I wanted to thank the chairman for having this hearing and 
for assembling this panel of expert witnesses and, also, 
especially, for asking Ms. Swanson from the Chicago public 
school system to come and testify, a system that I have been 
very close to for a number of years, having taught in it for 6 
years during the early phases of my adult life, having been 
married to a woman who has taught in it for 30 years, and 
having a sister who just retired as a principal and a sister-
in-law that has taught in it for 35 years and a host of friends 
that have done everything you could possibly do in it.
    Thank you all for your testimony. I wish I could say I am 
excited about the supplemental program, but I am really not. I 
am not excited about it because its seems to me that too much 
of the control is taken away from local school districts.
    Ever since I have been associated with education or 
concerned about education, I have always been a strong 
proponent of what I call local control of schools. I have 
always been a strong proponent of what I call parental 
involvement and participation. And I guess what I really don't 
understand, what is the role of local school districts in the 
implementation of the supplemental program?
    Ms. Swanson. We understand the guidance to be that we are 
to help get the choices out to parents, help recruit kids, get 
parents to make informed choices and help them select tutors 
and then, obviously, monitor to an extent what is happening in 
the classrooms. I am not sure it goes much beyond that.
    Mr. Davis of Illinois. Anyone else?
    Mr. Teasley. In Indiana, what the school districts have 
done regarding SES is inform the parents and invite them to 
parent nights and sent out mailers telling the families that 
are qualified for the services that these are the services you 
can choose from. The district has also entered agreements--
purchase order agreements with the service provider.
    Now we may have entered an agreement. I believe it was 
around $200,000 of services that we were supposed to provide to 
the district. The district wanted into that. And that is, of 
course, if we met 100 percent of the students and their needs 
that we were contracted to do.
    It is not compulsory education, so we don't necessarily 
have all the students that we signed up to serve. They come on 
their own free will. So we don't get the $200,000. But on the 
district side it is seen as a line as a cost of $200,000. I 
don't know how they are rectifying it at the end of the day, 
but that is what I see from my perspective.
    In Gary, a little different scenario. They actually had the 
family fair nights in the fall, and they started the SES 
programs just in January. So there is actually a 2- or 3-month 
lag time between the fair night, here is an opportunity, and 
then the services coming 3 months later. We have actually seen 
a huge drop-off from the interest that was generated from fair 
night to the January sign-up time.
    And I sure do wish we had the State test to follow at the 
end of our services, because we don't. In Indiana, we provide 
our State standard test in the fall. Three weeks after school 
opens, we all take this test. I assume in other States they are 
taking the State standardized tests in the spring, which might 
indeed drive the SES program and the attendance in those 
States, because it certainly will improve those test scores.
    Ms. Nola-Ganey. In Louisiana, we developed a tool kit for 
districts to help them implement SES. It has sample contracts, 
sample letters out to parents, a whole array of things that 
districts need to do to implement SES.
    Mr. Davis of Illinois. I guess part of my frustration is 
that I am absolutely convinced that the best way to improve 
reading scores and math scores and school achievement, 
especially in low-income communities, is to convince the 
community that education is a priority, that education is, in 
fact, the key. And that if people buy into the concept, then 
they will provide much of the motivation, they will provide 
much of the environment, and they will do what is necessary to 
help children buy into education as something that they really 
need to adhere to.
    I mean, I just finished, I guess, doing what we call a 
suspension bill; and we were talking about the Indian community 
and how the Asian community in this country, of course, has a 
higher level of economics in terms of median family income, of 
education. Eighty-seven percent of that population group 
finishes high school, and 60 percent goes to college. But it is 
sort of something that is built into the culture of the group.
    And I think that, while we can do the top down, you better 
do this, you better do that, if you don't, you are going to be 
punished, I think the people are already punished. I think they 
are punished when they are low achievers, and I think they are 
punished already, and I am not sure it is going to get the 
scores up as effectively.
    I see my time is up, but let me thank you all for your 
testimony and for your expertise and the great work that you 
do. I think that educators are the salt of the earth, pillars 
of the universe, and I appreciate you being here.
    Chairman Boehner. [Presiding.] The Chair recognizes the 
gentlelady from California for 5 minutes, Mrs. Davis.
    Mrs. Davis of California. Thank you, Mr. Chairman.
    I want to thank you all as well. You have been here about 
two-and-a-half hours, and we have been coming in and out and 
appreciate your patience with this.
    I wanted to ask you a few questions. I think at the heart 
of what we are talking about here today is how to best write 
and implement legislation that helps kids. Part of my question 
is whether or not, you know, we got this right, and part of it 
is in terms of the sequencing. At what point after students 
have not been achieving do you develop a program that really 
supports them through the supplemental services? You know, 
should it have been at the front end, rather than the back end? 
We all know we would hope that we would have more services for 
students.
    I am reminded of a program started in San Diego that you 
may be familiar with that is called AVID, Advancement Via 
Individual Determination. The whole core of that program is to 
particularly reach middle school students and high school with 
college tutors in a very supportive atmosphere. And the results 
of that are extraordinary because, what, 89 percent of kids who 
would never have gone to college have in fact gone to college 
because of that program. It is built in not waiting until after 
students have not been doing particularly well, but support is 
built in earlier.
    What I wanted to ask you about is the timing of the data 
collection to determine if a program is successful. Do you have 
a sense that you would feel comfortable in the context--you 
have been working and your data is reliable--when it is 3 years 
out from the beginning? 5 years? At what point should we say we 
know whether or not this has been helpful?
    Mr. Teasley. I will take a stab at it from a parent's 
perspective and be real simple about it. I don't think it is 
too early to evaluate this. I think a child sits down in a 
program for 1 hour, what is going to be the result at the end 
of that hour? And our program, we can tell you what the result 
is. We can't tell you what it will be before the hour, but we 
can tell you what the result was and what the student did in 
that hour and if it was productive and if the student didn't do 
anything.
    I don't think it is too early to evaluate this program. You 
have the number of students in schools in the States and 
districts, and they say they know how many students are in 
these programs. OK, what are they learning? How many hours? How 
many students are in the program? How many teachers are in the 
program? Tell us about the teachers. Are they certified? Tell 
us about the programs. Are they using computer-based programs?
    I don't think it is too early to evaluate this program. I 
think you can do it.
    Mr. Cohen. Let me add to that, I think you can do it. What 
we have suggested is that there is a system that we can put in 
place in terms of validating that the providers have done what 
they said they are going to do. Every provider in at least most 
State applications has to detail how they are going to make 
marked improvement with a student. So the question is, how do 
you come back after the program and ask the question, did they 
do what they said they would do in their application?
    We pre- and post-test every student, and we painstakingly 
detail how we deliver our curriculum. Whether it is the State 
or a third party could come in and watch--do a site visit, do 
an audit, do surveys with parents, with kids, with teachers, 
with principals and say, did they do all these things and then, 
on top of that, deliver to us your pre- and post-test results.
    I think the larger question is, how do you relate that to 
what is happening on State tests? The question we haven't 
answered is, how much gain are we supposed to see on the State 
tests?
    I can show you--as Mr. Teasley said, I can show you now the 
pre- and post-test gains that children in our programs are 
getting. The question is, how do you evaluate that in a broader 
context of the pressure to see gains on State-standardized 
tests? Is a seventh grader who is reading at a second grade 
level, are they supposed to go to the third grade or catch up 
to the seventh grade after only 30 hours of tutoring?
    Those are questions that haven't been answered yet. There 
is a void in terms of how do we define success in these 
programs.
    Mrs. Davis of California. And part of the problem is that 
we didn't define where that assessment would come from either, 
am I correct? You are saying that the State really doesn't 
evaluate. The programs themselves have been doing the 
evaluation.
    Mr. Cohen. But they could.
    I just want to echo something Chairman Boehner said. We are 
only in our second full year of implementation; and the States, 
at least our experience in working with the States, are very 
serious about building the resources, building the capacity to 
do the types of evaluations that we expect.
    I had the honor to be invited to a seminar with all the 
State representatives that the Department of Education hosted, 
and the whole point of that conversation was to help the States 
understand what their responsibility is in monitoring this.
    So I think this is an evolution. We haven't gotten all the 
way there yet, but it is too early to determine and say it 
hasn't worked.
    Ms. Swanson. To add, I think we do need, as Mr. Teasley 
said, to start looking at this now and evaluating it. We have 
been collecting data all year in the Chicago public school 
system. We have far more eligible kids than we have money. We 
want to make sure the money is used well and the highest 
quality programs they can get.
    You know, I think we heard things about that, eventually, 
yes, in a true market, this would play out, but that could take 
years for the sort of few quality providers to really rise to 
the top. And we are talking about kids. I don't think we should 
wait 3 years and have them flounder in mediocre programs 
necessarily. I think we should, you know, evaluate now and make 
some decisions.
    Mr. Cohen. I think that is right, but the patience--and I 
alluded to this in my testimony. It has been 40 years since 
Title I has been enacted. We have spent $175 billion in Title 
I. Last year, we spent $200 million on supplemental services, 2 
percent of the yearly Title I, half or more than half of which 
is controlled by the district. Because something that wasn't 
discussed here today, most children are in district-run 
programs across the country, not in private-provider programs. 
So, relatively speaking, given the $175 billion we spend and 
the achievement gap we currently have, this experiment seems 
certainly we should give it more than the 2 years we have given 
it to see if it takes hold when--given this new choice, an 
element of selection to parents who never had that before.
    Mrs. Davis of California. I appreciate that. And I think, 
Mr. Chairman, you mentioned there will be more money flowing 
and the concern would be whether or not enough communities have 
the capacity to respond with qualified people to be part of the 
program. Thank you, Mr. Chairman.
    Chairman Boehner. Let me thank our witnesses and remind my 
colleagues and others why we have supplemental services in No 
Child Left Behind. The whole idea was, if you had a school that 
was in need of improvement, there had to be some safety valve 
for those children that were stuck in one of those schools to 
have an opportunity to get a chance of a decent education. And 
that is how we looked at it, as a safety valve.
    Mr. Davis, I couldn't agree more with you that I would hope 
that no child would not be eligible for supplemental services, 
because those activities are being done, you know, in the 
regular classroom. I think what is going to happen as we look 
down the road 5 years, 10 years, schools are going to develop 
new strategies for how to intervene and how to deal with at-
risk children.
    But I find this debate about accountability of the 
supplemental service provider is rather interesting because for 
30 years and $175 billion that we gave to our public schools we 
never asked them to do anything, never asked them to be 
accountable once; and now, 3 years, we are asking for more 
accountability in our schools.
    While this supplemental service--supplemental service 
providers, some States are doing a better job than others, it 
is pretty clear. Hopefully, the other States will increase 
their accountability assistance.
    But I do have one question. Now, Mr. Teasley and Mr. Cohen, 
you are both, I will say, in the industry; and, Mr. Cohen, I am 
familiar with your former firm. My daughter was a student at 
Sylvan at one time, so I have some familiarity with your 
techniques. But I guess my question is, why don't we see more 
school systems adopting more unique techniques and strategies 
for teaching children, especially at-risk children?
    I know it might be hard for you to answer because you work 
with a lot of schools, but----
    Mr. Cohen. Actually, we see quite a few school systems and 
schools adopting the types of techniques. We are talking about 
supplemental services programs are not classroom instruction 
programs. They are very different, and they are not meant to be 
what happens in the classroom during the day. We see this as 
extra, as supplemental.
    We, again, prior to No Child Left Behind had worked with 
quite literally hundreds of school districts across the country 
providing these types of services, and many of our colleagues 
in the industry do the same thing, bringing our what I would 
call narrow expertise in this one area of providing educational 
service to partners in schools and school districts and saying 
we can work together to address the needs of children who have 
major skill gaps. So, I mean, we saw supplemental services when 
it was enacted merely as an affirmation of all those programs 
that had been going on in hundreds and thousands of schools 
across the country.
    Chairman Boehner. Mr. Teasley.
    Mr. Teasley. I have enjoyed listening to Mr. Cohen all day, 
and this is probably the only part where I have to disagree 
with him. He has a different perspective, that this is 
something extra. For us, it is actually what we see what should 
be going on during the day.
    We are a charter school provider and sponsor, and our math 
and our reading program that we use during the day at our 
school is the same program we use in the after school for the 
other kids not from our school. They are from the district. So 
we would hope that schools throughout the country will look at 
what is perceived as perhaps extra and do it during the day in 
the classroom, quite frankly.
    I see some of my friends from the Department of Education 
here who were with me when I went to Gary last year. They were 
raving about a couple of after school tutoring programs; and 
they actually said, we sure wish we could do this during the 
day. I said, why not? They said, the district. Well, then 
change it. You are the district.
    Chairman Boehner. Mr. Cohen, I understand your business is 
providing supplemental services, but the fact that you have to 
provide supplemental services kind of accepts an indictment of 
the strategy that goes on during the day.
    Mr. Cohen. I actually respectfully disagree.
    Chairman Boehner. Go ahead. I am trying to understand.
    Mr. Cohen. The supplemental services we provide are very 
targeted programs, typically, as I said, six students to one 
teacher, maybe 30, maybe 40, maybe 50 hours, but precisely 
trying to address skill gaps that we have assessed prior to the 
program. We run every student through an assessment. The burden 
you would place on public schools to try to accomplish that is 
really quite unfathomable.
    Chairman Boehner. It would be a burden under today's 
strategy for educating children. Now my point is that why 
wouldn't schools and schools of education begin to look at a 
strategy of identifying those gaps early on, often during the 
regular curriculum, during the school day?
    Mr. Cohen. I agree with that comment, absolutely; and I 
think you are seeing that happen. In other words, if you look 
across school districts and the curriculum or the curricula 
they are adopting, there is much more of what you are 
suggesting reflected: assessment at an individual level, more 
mid-course correction with respect to the delivery of the 
educational curriculum to address specific individual needs. We 
feel we are headed in that direction. We are probably not 
getting there fast enough. But I think that the education 
reform you see out in the school districts reflects the comment 
that you made.
    Mr. Teasley. Mr. Chairman, I don't know if it is a 
different curricula as it is just different styles of teaching. 
He has a very different style of teaching than we do. He just 
mentioned six to one, and we have 10 to one. We also have 
computers. I don't know what he has. We have to take into 
account that we have all different kinds of kids coming to us, 
and we have to provide different styles of teaching, and I 
would like to see us incorporate that during the day.
    Chairman Boehner. Ms. Swanson, Ms. Nola-Ganey, do you have 
anything to add?
    Ms. Nola-Ganey. I think we are doing those things as the 
school district. We are doing our math and reading initiatives. 
We do ongoing assessments now and relatively new initiatives in 
the district the last few years. But we are employing the same 
strategies and trying to be innovative in the classroom as well 
as outside the classroom.
    The burden is on the school strict to take down barriers to 
learning. We provide a number of health programs, social 
services, counselors. As Mr. Teasley talked about the school 
system he works in, we are doing those as well and then looking 
at our instruction.
    Chairman Boehner. According to my good friend, Mr. Miller, 
who visited the Chicago public school systems last month or so, 
I guess, he told me that about half of your elementary schools 
are really doing well and the other half you are continuing to 
work on. Most urban districts would be thrilled to have such a 
record at this point.
    Ms. Nola-Ganey. I have to agree with Ms. Swanson. We are 
doing that.
    I will use our Reading First program as an example. I think 
we have a long way to go, especially with staff development for 
our teachers, but I think we are headed in that direction; and 
I am encouraged.
    Chairman Boehner. Well, I want to thank everyone for their 
patience.
    Hearing is adjourned.
    [Whereupon, at 4:15 p.m., the committee was adjourned.]

                                 <all>

</pre></body></html>
